<html>
<title> - THE ENVIRONMENTAL RESTORATION PROGRAM AT SPRING VALLEY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
         THE ENVIRONMENTAL RESTORATION PROGRAM AT SPRING VALLEY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2009

                               __________

                           Serial No. 111-20

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
53-572                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
MIKE QUIGLEY, Illinois               BRIAN P. BILBRAY, California
MARCY KAPTUR, Ohio                   JIM JORDAN, Ohio
ELEANOR HOLMES NORTON, District of   JEFF FLAKE, Arizona
    Columbia                         JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois             AARON SCHOCK, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         JOHN M. McHUGH, New York
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
ELIJAH E. CUMMINGS, Maryland         BRIAN P. BILBRAY, California
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 2009....................................     1
Statement of:
    Davis, Addison, Deputy Assistant Secretary, Environment, 
      Safety, and Occupational Health, U.S. Army; Colonel Peter 
      Mueller, U.S. Army Corps of Engineers; William C. Early, 
      Acting Regional Administrator, U.S. Environmental 
      Protection Agency; and George S. Hawkins, Director, D.C. 
      Department of the Environment..............................   123
        Davis, Addison...........................................
 23
        Early, William C.........................................   141
        Hawkins, George S........................................   148
        Mueller, Colonel Peter...................................   132
    Kerwin, Cornelius M., president, American University; Nan 
      Shelby Wells, ANC commissioner 3D03; Thomas Smith, ANC 
      commissioner 3D02; Kent Slowinski, former member, Spring 
      Valley Restoration Advisory Board; Gregory A. Beumel, 
      chairman, Spring Valley Restoration Advisory Board; and 
      James Barton, president, Underwater Ordnance Recovery, Inc.   172
        Barton, James............................................   233
        Beumel, Gregory A........................................   226
        Kerwin, Cornelius M......................................   172
        Slowinski, Kent..........................................   214
        Smith, Thomas............................................   187
        Wells, Nan Shelby........................................   179
    Mittal, Anu K., Director, Natural Resources and Environment, 
      U.S. Government Accountability Office; and Harold Bailey, 
      Garvey Schubert Barer......................................    14
        Bailey, Harold...........................................    37
        Mittal, Anu K............................................    14
Letters, statements, etc., submitted for the record by:
    Bailey, Harold, Garvey Schubert Barer, prepared statement of.    39
    Barton, James, president, Underwater Ordnance Recovery, Inc., 
      prepared statement of......................................   234
    Beumel, Gregory A., chairman, Spring Valley Restoration 
      Advisory Board, prepared statement of......................   228
    Blumenauer, Hon. Earl, a Representative in Congress from the 
      State of Oregon, prepared statement of.....................    12
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, prepared statement of.......................     6
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............   120
    Davis, Addison, Deputy Assistant Secretary, Environment, 
      Safety, and Occupational Health, U.S. Army, prepared 
      statement of...............................................   126
    Early, William C., Acting Regional Administrator, U.S. 
      Environmental Protection Agency, prepared statement of.....   143
    Hawkins, George S., Director, D.C. Department of the 
      Environment, prepared statement of.........................   151
    Kerwin, Cornelius M., president, American University, 
      prepared statement of......................................   175
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3
    Mittal, Anu K., Director, Natural Resources and Environment, 
      U.S. Government Accountability Office, prepared statement 
      of.........................................................    17
    Mueller, Colonel Peter, U.S. Army Corps of Engineers, 
      prepared statement of......................................   134
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     9
    Slowinski, Kent, former member, Spring Valley Restoration 
      Advisory Board, prepared statement of......................   216
    Smith, Thomas, ANC commissioner 3D02, prepared statement of..   190
    Wells, Nan Shelby, ANC commissioner 3D03, prepared statement 
      of.........................................................   183


         THE ENVIRONMENTAL RESTORATION PROGRAM AT SPRING VALLEY

                              ----------                              


                        WEDNESDAY, JUNE 10, 2009

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Cummings, Kucinich, 
Clay, Connolly, Chaffetz, and Bilbray.
    Staff present: William Miles, staff director; Marcus A. 
Williams, clerk/press secretary; Jill Crissman, professional 
staff; Aisha Elkheshin, intern; Adam Fromm, minority chief 
clerk and Member liaison; Howard Denis, minority senior 
counsel; and Alex Cooper, minority staff member.
    Mr. Lynch. Good afternoon. The Subcommittee on Federal 
Workforce, Postal Service, and the District of Columbia will 
now come to order.
    Well, I welcome our ranking member, Mr. Chaffetz, members 
of the subcommittee, hearing witnesses, and all those in 
attendance. Today's hearing will examine the recent progress or 
lack thereof of the restoration program at the Spring Valley 
development. We will discuss the current and future criteria 
that will be used in declaring the site clear of environmental 
health contaminants and assess the level of transparency and/or 
community engagement associated with the cleanup.
    The Chair, ranking member, and subcommittee members will 
each have 5 minutes to make opening statements. All Members 
will have 3 days to submit statements for the record.
    Ladies and gentlemen, again let me welcome you to the 
second of what will be a series of oversight hearings on 
federally related District of Columbia issues which the 
subcommittee intends to hold during the first session of the 
111th Congress. At the urging of the gentlelady from the 
District of Columbia, Ms. Eleanor Holmes Norton, today's 
hearing was convened to discuss the latest developments in the 
cleanup and restoration of the Spring Valley formerly used 
defense site located in the northwest quadrant of our city.
    For decades, residents living in the community surrounding 
Spring Valley and the campus of American University have had to 
endure disruptions of their land and their livelihood as the 
Department of Defense, the U.S. Army Corps of Engineers, the 
Environmental Protection Agency, and local D.C. governing 
agencies have worked to remedy various environmental and health 
hazards stemming from past usage of the 661 acre site by the 
U.S. Army for the development and testing of chemical agents, 
equipment, and munitions during World War I.
    While wholly unacceptable by today's standards, the U.S. 
Army closed the doors on the Spring Valley site immediately 
following the conclusion of World War I. Instead of responsibly 
disposing of these dangerous materials, the agency simply dug 
holes in the ground, buried the site's remnants, and walked 
away.
    Well, nearly 90 years has passed since the days of the 
American University Experimental Station and Camp Leach yet 
even today ordnance, metallic debris, chemical agent 
breakdowns, and unexploded munitions continue to be discovered, 
investigated, and in most cases removed from the Spring Valley 
site.
    To their credit, since the 1993 discovery of buried 
ordnance by a local utility worker and the premature 
termination of field work in the 1995 site clean declaration, 
the Corps and its partners have made substantial progress in 
cleaning up and remediating Spring Valley. With over $170 
million spent, the Corps has removed thousands of cubic yards 
of arsenic contaminated soil, disposed of hundreds of munitions 
and ordnance related debris, and identified and investigated 
dozens of points of interest within Spring Valley, all while 
attempting to keep the community informed of the project's 
progress through the Spring Valley Restoration Advisory Board.
    Despite the gains made over the past 15 years in restoring 
Spring Valley, the fact of the matter is that a great number of 
questions and concerns continue to persist around the Spring 
Valley cleanup process: the methodology and science employed, 
the level of transparency involved, and the Corps' proposed 
timeline for field work and/or project completion. Today's 
hearing is intended to get answers to some of these critical 
questions and problems, and to bring about the ultimate 
environmental restoration of Spring Valley and the reassurance 
to its residents that the area no longer poses potential 
harmful and hazardous health risks.
    I appreciate the participation of today's witnesses and, 
more importantly, having their assistance in helping the 
subcommittee ascertain what future course of actions should be 
taken with regard to the Spring Valley cleanup project.
    I now yield for a 5-minute opening statement to the ranking 
member, Mr. Chaffetz.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.001
    
    [GRAPHIC] [TIFF OMITTED] T3572.002
    
    Mr. Chaffetz. Thank you, Mr. Chairman. Thank you for 
holding this hearing today. In 2001 and 2002, the old District 
of Columbia Subcommittee, then chaired by Representative Connie 
Morella, held hearings on the status of the cleanup of 
contaminated sites in the Spring Valley area. Today we will 
revisit some of those issues discussed in those hearings to see 
what sort of progress has been made and what the prospects are 
for the future.
    After the United States of America declared war against the 
German Empire and the Austro-Hungarian Empire in 1917, the 
Spring Valley area was used as a testing site by the Army for 
munitions and chemical agents. It is now referred to as a 
formerly used defense site. Today, Spring Valley is home to the 
American University and to hundreds of homes first developed in 
the 1920's.
    In 2002, the GAO issued a report on the environmental 
contamination and uncertainties which were continuing to affect 
the progress of the Spring Valley cleanup. The report evaluated 
the health risks associated with the hazards identified and 
removed from Spring Valley, and evaluated the Corps' estimated 
cost and cleanup schedule.
    It is important for all to know and for the witnesses to 
address whether or not there are remaining health risks and to 
clarify the duration and costs of the cleanup. Clearly, the 
Federal Government has a responsibility to make sure the 
contaminants are removed in their totality.
    I look forward to hearing about the status of the Spring 
Valley cleanup from our distinguished witnesses. I thank you 
all for your participation, your willingness to be here.
    I yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Hon. Jason Chaffetz follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.003
    
    Mr. Lynch. Thank you. Now I would like to recognize really 
the person who has been the catalyst for the ongoing work, 
someone who has spent far more time than I have on this issue. 
She has really done a fantastic job, in my opinion, in 
representing the people of Spring Valley and the entire 
District. I must say that if I were someone living in D.C., if 
I were someone living in the Spring Valley neighborhood, I 
would be very happy with the way Ms. Eleanor Holmes Norton has 
handled her responsibility. I would feel very reassured in the 
way she has handled this issue and her absolute vigilance on 
behalf of the people that she represents. It is heartwarming to 
see. So with that, I recognize the gentlelady from the District 
of Columbia for 5 minutes for an opening statement.
    Ms. Norton. I thank you very much, Mr. Chairman, for those 
very gracious comments. I very much appreciate Chairman Lynch's 
willingness to schedule this hearing early on our subcommittee 
agenda. I listed Spring Valley as one of my top priorities in a 
letter to the Chair as the legislative year began because of 
the national and local importance of confronting Federal 
responsibility for informing residents of toxic substances in 
communities, particularly when the Federal Government itself 
deposited them there and has an undisputed responsibility to 
clean the area and to shoulder the burden of proof of showing 
that the area is again safe.
    I appreciate that, beginning in my early years in Congress 
when I was in the minority, this committee has held every 
hearing that I have requested to assure that the Spring Valley 
neighborhood surrounding American University is cleared of 
World War I chemical and other weapons by the Army Corps of 
Engineers.
    I ask my colleagues to put themselves in the position of my 
Spring Valley constituents who have worked hard to purchase 
homes in one of the District's most attractive neighborhoods. 
By sheer happenstance a utility worker discovers a cache of old 
weapons and in short order they are identified as buried 
chemical ordnance left behind by the Army.
    There are similar areas called formerly used defense sites 
or FUDS around the country where munitions have been buried and 
cleaning is necessary. However, they are usually far from 
densely populated areas. We know of no other FUDS in a major 
city where a residential area was developed around and on top 
of the FUDS without the Government disclosing that it had 
buried potentially harmful munitions.
    Munitions were also buried in other areas in the District, 
in northeast and southeast, but Spring Valley is the largest 
uncleaned residential area here where munitions were buried. 
Yet at the time there was no doubt, at the very time when this 
testing was going on there could have been no doubt, that this 
area where American University after all was already located 
would be even more fully developed.
    The history of Spring Valley is long and convoluted, but at 
its core is the Army's decision during World War I to use this 
area in the northwest of the District for the first dangerous 
tests and experiments with its new and developing chemical 
weapons program.
    The decision to locate a major chemical testing facility 
and then to bury the debris, unexploded ordnance, and chemicals 
on the site here was no accident. The District had no local 
government. Its citizens could elect no one to speak for them 
in the city where they lived, and no one to represent them in 
the Congress which collected their taxes. The Federal 
Government itself ruled the city using federally appointed 
commissioners. Thus the Army was free to do here what it could 
not due in Maryland, Virginia, or any other State close to a 
residential area.
    As many as 800,000 District residents had no vehicle for 
information on what the Army was doing in their city and no 
right to know. The District of Columbia was for all these war 
time chemical experiments what poorer nations are today when 
they receive landfill garbage, scrap metal, and other waste 
that Americans do not want in their communities.
    As the Spring Valley community more fully developed, the 
Army continued to fail to inform the District or the Spring 
Valley residents of the munitions and the possible dangers they 
might pose. In fact, during the 1950's and again in the 1980's 
American University and others raised concerns about buried 
munitions in Spring Valley, but it was not until 1993 that the 
Army Corps finally declared the site a FUDS. That was only 
after a utility worker accidentally stumbled upon buried 
ordnance.
    Since that discovery, the Corps has left Spring Valley 
twice concluding that no large hazards remain. Both times, the 
Corps had to return for more cleaning. Only the oversight of 
this subcommittee has assured continuing cleanup of Spring 
Valley. Now the Corps of Engineers has again announced to the 
community that it intends to leave the area in 2 years. 
However, Mr. Chairman, the Corps neither informed this 
committee, despite our oversight over the years, or me, the 
city's only elected congressional official. I learned of the 
Corps' intention from my Spring Valley constituents.
    The Corps had no right to announce its exit without more, 
especially considering the many errors and mishaps so far and 
in an absence of transparency over the years that borders on 
suppression of information. Neither Congress nor the community 
has seen the Corps' 2 year exit plan or any evidence that the 
area has been cleaned. Appropriate oversight by the 
Environmental Protection Agency has been in question. The 
decision to destroy the munitions onsite raises a host of 
additional issues. No objective evaluation has been done to 
assure that this time there is no more ordnance in the area.
    This hearing and any others that may be required seek and 
must obtain the answers the District and the residents of 
Spring Valley are entitled to have before the Army leaves the 
Nation's only residential site it once used to develop chemical 
munitions.
    I thank our Spring Valley witnesses: Greg Beumel, Nan 
Wells, Thomas Smith, Kent Slowinski, and Harold Bailey. I thank 
the Army, the Army Corps, the EPA, the GAO, the D.C. Department 
of Environment, our expert ordnance recovery expert Mr. Barton, 
and President Kerwin of the American University. I very much 
look forward to hearing from each and every one of you.
    Thank you again, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T3572.004

[GRAPHIC] [TIFF OMITTED] T3572.005

    Mr. Lynch. Thank you. At this time I would like to ask 
unanimous consent for the testimony of Congressman Earl 
Blumenauer to be added to the record. Hearing no objections, so 
ordered.
    [The prepared statement of Mr. Blumenauer follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.006
    
    Mr. Lynch. Now I would like to welcome our first panel.
    Oh, I am sorry. I am sorry; I am sorry. Before we go to 
that--I apologize profusely--I would like to give 5 minutes to 
the distinguished gentleman from California, my friend Mr. 
Bilbray, for 5 minutes.
    Mr. Bilbray. Thank you, Mr. Chairman. Mr. Chairman, I 
noticed this hearing and it kind of caught my eye for a lot of 
reasons, not just because we have a Spring Valley in San Diego 
County, too.
    I would like to inform the Delegate that this isn't the 
only urban area where munitions are specifically an issue in a 
residential neighborhood. In San Diego, if my memory serves me, 
we actually in the 1980's lost some children to unexploded 
munitions. In San Diego we have many locations that are now 
residential that were active military operations with live 
munitions in many different forms, and in a lot of forms we 
don't understand.
    Even though we have two Senators and a countless amount of 
Congressman in California, the fact is that Federal 
reservations tend to have that degree of autonomy that is 
mandated by constitutional law. When those lands are turned 
over for private development later, we do have these issues.
    I would just note that one of these sites in San Diego is 
actually the site of the University of California at La Jolla. 
So I think this issue really kind of points out that this is 
not just an issue of the disadvantaged and the poor. This is a 
problem even the wealthy and the powerful can run into as we 
have run into it in certain places in California. Obviously, 
this is one of those neighborhoods that everybody would never 
think would have a problem from looking at the homes. But I 
think that we need to address that.
    I will tell you, we still have discussions in San Diego, 
watching the canyons after the major fires that just occurred a 
few years ago, of utilizing those fires as a way of going down 
and searching to see if there are any more munitions in the 
neighborhoods where our children are playing.
    So I just wanted to reflect the fact to the Delegate that 
she is not alone on this. D.C. is not the only community that 
has to face these challenges. It may have different challenges. 
But I think the issue of post-military utilization of property 
is going to be a challenge we have for a long time.
    I want to make sure, though, that we approach this in a 
manner that does not create an attitude, especially among our 
military, that once property is used by the military you don't 
dare allow civilian use in the future. I don't want this to 
create a defensive mechanism, if not a downright paranoid 
mechanism, that we can't allow it ever to be used again. 
Because there are a lot of good uses after military use. It is 
just appropriate handling and addressing the issues. Obviously, 
eliminating the problem before civilian use is always the 
preferred state but even then there is going to have to be a 
sensitivity of constant monitoring.
    Mr. Chairman, a good example is the fact that we recycle 
sand in California. There was the issue of military munitions 
that were laying at the bottom of a bay that no one knew about 
being an issue to where we recklessly threw away millions of 
metric tons of good recycle sand. It was because of the 
paranoia, in my opinion, of the munitions rather than 
addressing this appropriately.
    Hopefully we will be able to move forward and address this 
item in an appropriate manner. It has obviously been one that 
has been on the front burner for a long time. I appreciate this 
hearing.
    I yield back.
    Mr. Lynch. I thank the gentleman.
    OK, now I would like to welcome our first panel. It is the 
custom before this committee that all witnesses to provide 
testimony before the subcommittee are sworn. Could I please ask 
you each to rise and raise your right hand?
    [Witnesses sworn.]
    Mr. Lynch. Let the record indicate that each of the 
witnesses answered in the affirmative.
    Just briefly, let me give some ground rules. The green 
light in that little box in front of you in the middle of the 
table will indicate you have 5 minutes to provide an opening 
statement. The yellow light when it clicks will indicate that 
you have 1 minute remaining. Then the red light indicates that 
the time allotted for your statement has expired.
    I would like to provide just a brief introduction of the 
first two witnesses: Ms. Anu K. Mittal is Director with the 
Natural Resources and Environment team of the U.S. Government 
Accountability Office. She is responsible for leading GAO's 
work in the area of water resources and defense environmental 
cleanup.
    Mr. Harold Bailey is currently assisting Washington, DC, 
residents threatened by improperly disposed munitions. Mr. 
Bailey's projects have involved the application and enforcement 
of U.S. environmental laws such as the National Environmental 
Policy Act, the Clean Water Act, the Clean Air Act, and the 
Endangered Species Act.
    Ms. Mittal, you are now recognized for 5 minutes for an 
opening statement.

 STATEMENTS OF ANU K. MITTAL, DIRECTOR, NATURAL RESOURCES AND 
ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND HAROLD 
                 BAILEY, GARVEY SCHUBERT BARER

                   STATEMENT OF ANU K. MITTAL

    Ms. Mittal. Mr. Chairman and members of the subcommittee, 
thank you for inviting us today to provide some historical 
context and a national perspective for the Spring Valley 
cleanup.
    As you know, Spring Valley was designated as a formerly 
used defense site or FUDS in 1993 after ordnance was discovered 
by accident. Further investigations at Spring Valley found 
additional hazards including arsenic contaminated soil and lab 
waste. By April 2002, the Corps had removed over 5,600 cubic 
yards of soil, 667 pieces of ordnance, and 101 bottles of 
chemicals. In 2003, the Corps also discovered perchlorate in 
groundwater at the site and so installed over three dozen 
monitoring wells for sampling. Since 2002, the Corps has 
continued cleanup at the site and has removed large quantities 
of contaminated soil, hundreds of lab related items and 
munitions debris, as well as some in tact munitions and 
containers.
    In fiscal year 2002, the total cost to clean up Spring 
Valley was expected to be about $147 million and take about 5 
more years to complete. However, 7 years later, cleanup is 
still ongoing and the estimated costs have increased to almost 
$174 million.
    Since we issued our Spring Valley report in 2002, we have 
conducted several reviews of DOD's Environmental Restoration 
Program nationwide for both active installations and FUDS. Our 
work at the national level shows that the concerns identified 
at Spring Valley are not unique and are in fact common to many 
sites across the country. Four key themes emerged from our work 
that we believe are directly relevant to the Spring Valley 
cleanup.
    First, shortcomings in the use of available data can lead 
to poor decisionmaking. The Army's conclusions in 1986 and 1996 
that there was no evidence of large scale hazards remaining at 
Spring Valley were made without the benefit of all available 
information. Our nationwide review of FUDS found similar 
shortcomings in the Corps' use of available information for 
making decisions at over 1,400 sites across the country. We 
found that the Corps either did not obtain, overlooked, or 
dismissed information that might have indicated the presence of 
a hazard. Recently a major association of State regulators has 
noted that these problems continue to persist.
    Second, incomplete data onsite conditions and emerging 
contaminants can interfere with the development of accurate 
cost estimates and schedules, just as the cost estimates at 
Spring Valley have increased almost eight and a half times 
since the initial estimate of $21 million was developed. 
Developing cost estimates for FUDS and active installations 
across the country pose a similar challenge. This is because 
DOD often has incomplete information onsite conditions when it 
first makes cost estimates. As more information becomes 
available or as new contaminants are discovered, estimates must 
be revised and can thus vary significantly over the life of a 
project.
    Third, funding availability for a particular site may be 
influenced by overall program goals and priorities. Spring 
Valley is just one of the over 4,700 FUDS nationwide that DOD 
is in the process of cleaning up. However, Spring Valley has 
received priority funding due to its proximity to the Nation's 
Capital and high visibility. This is usually not the case with 
most FUDS, and they must compete for a slice of a relatively 
small funding pie. Although funding for FUDS has been 
relatively stable over the last decade, it is well recognized 
that the level of funding available cannot meet all cleanup 
needs.
    Finally, better coordination and communication with 
regulators and property owners can increase public confidence 
and facilitate effective decisionmaking. In 2002, we reported 
that the Corps, EPA, and the District of Columbia had made 
progress on Spring Valley by adopting a partnership approach 
and establishing a means of communicating with the public. 
However, we have found that this kind of communication and 
coordination does not always occur at other sites nationwide 
and can significantly hinder cleanup progress.
    In response to the findings and recommendations that we 
have made over the last 6 years, DOD has taken actions to 
modify its procedures and improve its guidance. While we have 
not evaluated DOD's implementation of our past recommendations 
in depth, we are reviewing some of these issues as part of our 
ongoing work that will be issued later this year.
    In conclusion, Mr. Chairman, experiences with DOD's 
national cleanup program and the Spring Valley cleanup tell us 
that environmental restoration is a daunting task. But there 
are lessons that can be applied to the process that can make it 
more effective as we move forward.
    This concludes my prepared statement. I would be happy to 
respond to any questions.
    [The prepared statement of Ms. Mittal follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.007
    
    [GRAPHIC] [TIFF OMITTED] T3572.008
    
    [GRAPHIC] [TIFF OMITTED] T3572.009
    
    [GRAPHIC] [TIFF OMITTED] T3572.010
    
    [GRAPHIC] [TIFF OMITTED] T3572.011
    
    [GRAPHIC] [TIFF OMITTED] T3572.012
    
    [GRAPHIC] [TIFF OMITTED] T3572.013
    
    [GRAPHIC] [TIFF OMITTED] T3572.014
    
    [GRAPHIC] [TIFF OMITTED] T3572.015
    
    [GRAPHIC] [TIFF OMITTED] T3572.016
    
    [GRAPHIC] [TIFF OMITTED] T3572.017
    
    [GRAPHIC] [TIFF OMITTED] T3572.018
    
    [GRAPHIC] [TIFF OMITTED] T3572.019
    
    [GRAPHIC] [TIFF OMITTED] T3572.020
    
    [GRAPHIC] [TIFF OMITTED] T3572.021
    
    [GRAPHIC] [TIFF OMITTED] T3572.022
    
    [GRAPHIC] [TIFF OMITTED] T3572.023
    
    [GRAPHIC] [TIFF OMITTED] T3572.024
    
    [GRAPHIC] [TIFF OMITTED] T3572.025
    
    [GRAPHIC] [TIFF OMITTED] T3572.026
    
    Mr. Lynch. Thank you. Mr. Bailey, you are now recognized 
for 5 minutes.

                   STATEMENT OF HAROLD BAILEY

    Mr. Bailey. Thank you, Mr. Chairman. I am here today on 
behalf of several Spring Valley families who were unaware that 
their children were playing in soil laced with arsenic or that 
those children could find containers that once held poison 
gases.
    I am holding a piece of a container for phosgene gas found 
by Frances Hansen's young child in their backyard in 2002. The 
Army and American University had rented a house to Ms. Hansen 
but failed to warn her and other Spring Valley families about 
the potential exposure to AUES weapons of mass destruction 
despite the historical, photographic, and physical evidence in 
their possession.
    My law firm assists government officials who are assessing 
contamination left by the U.S. military. So let me explain why 
I think the Army and AU need to do more research to locate and 
remove WMD in Spring Valley. There is a 1918 photograph of the 
American University Experiment Station taken by Sergeant 
Maurer. It shows ceramic containers and metal drums near a 
burial pit located near the current boundary of AU and 
Glenbrook Road.
    There was a criminal investigation into the Army's 
activities in Spring Valley in 2000. EPA investigators learned 
that the Army had obtained this Maurer photograph in 1993. So 
for 16 years the Army has known approximately where the Maurer 
Pit is but has not been able to locate its location.
    In my experience, photographic evidence of a large burial 
site with metal drums means that advanced geophysical devices 
could locate that site. But as the ANC Commissioners will 
indicate, the past geophysical detection methods used by the 
Army didn't have the capability to locate burial sites at deep 
depths or in hard to reach locations. Without these more 
advanced geophysical methods to locate the Maurer Pit, Spring 
Valley residents will always have a gnawing feeling that a WMD 
site could be within several hundred yards.
    One child in the Dudley family who played in the dirt in 
this area experienced acute skin irritation similar to the 
symptoms from exposure to lewisite. The Dudleys were never told 
of the Maurer photograph and never warned that the Army had 
found live shells on their property.
    The May 1920 minutes of the AU Trustees record AU's 
acceptance of a proposition by the U.S. Government to 
compensate AU. Articles in the AU Courier newspaper explained 
that the Army had dug a pit deeper than the one into which 
Joseph was cast for the burial of $800,000 in chemical 
munitions. There are three points that indicate that is not the 
Maurer Pit, and neither have been found. There is no extremely 
deep pit that has been found. The munitions valued at $800,000 
in 1919 dollars have not been found. And burying large amounts 
of explosively configured munitions along with mustard gas is 
not exactly a safe practice even in 1919.
    Particularly troubling is that the Army and AU knew about 
the potential presence of WMDs since 1986 when an EPA 
historical photographic analysis showed ground scars indicating 
burial pits on or near AU. The 1986 report was credible 
evidence of potential danger to Spring Valley families but this 
report was not disclosed until many years later. It reflects a 
pattern of failure to warn and failure to disclose material 
information under legal standards.
    Let me summarize the AUES lawsuits that Congresswoman 
Norton asked me to cover: First, recovering compensation from 
the U.S. Government for disposal of munitions is unlikely under 
judicial interpretations of the Federal Tort Claims Act. The 
AUES disposals are considered non-compensable discretionary 
acts, regardless of the dangers that are created.
    Second, AU is not protected by this discretionary act 
exemption. AU in fact settled a lawsuit after a Federal judge 
found that AU failed to disclose information about the burials 
to a home buyer.
    Third, the parties settling the various lawsuits have 
sealed their court filings in many cases, thus preventing 
public disclosure of what the litigants know about AUES 
burials.
    Finally, the lawsuits have been a blame game where the 
protection of public health and the environment of Spring 
Valley has not been addressed. The litigation is focused on 
monetary compensation rather than claims involving the Army or 
even EPA for failure to comply with Federal environmental 
statutes that govern cleanups at FUDS. In July 2001, AU sued 
the Army for $86 million. This lawsuit was an unsuccessful 
attempt to shift legal liability, but the fact is that AU had 
accepted the Government's 1920 propositions and compensation.
    In conclusion, I believe that this subcommittee has the 
authority to ensure that advanced scientific techniques are 
used to locate the most dangerous WMD sites at Spring Valley. I 
ask that Congress ensure that these techniques are used before 
the Army stops its investigation or remedial activities.
    Thank you.
    [The prepared statement of Mr. Bailey follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.027
    
    [GRAPHIC] [TIFF OMITTED] T3572.028
    
    [GRAPHIC] [TIFF OMITTED] T3572.029
    
    [GRAPHIC] [TIFF OMITTED] T3572.030
    
    [GRAPHIC] [TIFF OMITTED] T3572.031
    
    [GRAPHIC] [TIFF OMITTED] T3572.032
    
    [GRAPHIC] [TIFF OMITTED] T3572.033
    
    [GRAPHIC] [TIFF OMITTED] T3572.034
    
    [GRAPHIC] [TIFF OMITTED] T3572.035
    
    [GRAPHIC] [TIFF OMITTED] T3572.036
    
    [GRAPHIC] [TIFF OMITTED] T3572.037
    
    [GRAPHIC] [TIFF OMITTED] T3572.038
    
    [GRAPHIC] [TIFF OMITTED] T3572.039
    
    [GRAPHIC] [TIFF OMITTED] T3572.040
    
    [GRAPHIC] [TIFF OMITTED] T3572.041
    
    [GRAPHIC] [TIFF OMITTED] T3572.042
    
    [GRAPHIC] [TIFF OMITTED] T3572.043
    
    [GRAPHIC] [TIFF OMITTED] T3572.044
    
    [GRAPHIC] [TIFF OMITTED] T3572.045
    
    [GRAPHIC] [TIFF OMITTED] T3572.046
    
    [GRAPHIC] [TIFF OMITTED] T3572.047
    
    [GRAPHIC] [TIFF OMITTED] T3572.048
    
    [GRAPHIC] [TIFF OMITTED] T3572.049
    
    [GRAPHIC] [TIFF OMITTED] T3572.050
    
    [GRAPHIC] [TIFF OMITTED] T3572.051
    
    [GRAPHIC] [TIFF OMITTED] T3572.052
    
    [GRAPHIC] [TIFF OMITTED] T3572.053
    
    [GRAPHIC] [TIFF OMITTED] T3572.054
    
    [GRAPHIC] [TIFF OMITTED] T3572.055
    
    [GRAPHIC] [TIFF OMITTED] T3572.056
    
    [GRAPHIC] [TIFF OMITTED] T3572.057
    
    [GRAPHIC] [TIFF OMITTED] T3572.058
    
    [GRAPHIC] [TIFF OMITTED] T3572.059
    
    [GRAPHIC] [TIFF OMITTED] T3572.060
    
    [GRAPHIC] [TIFF OMITTED] T3572.061
    
    [GRAPHIC] [TIFF OMITTED] T3572.062
    
    [GRAPHIC] [TIFF OMITTED] T3572.063
    
    [GRAPHIC] [TIFF OMITTED] T3572.064
    
    [GRAPHIC] [TIFF OMITTED] T3572.065
    
    [GRAPHIC] [TIFF OMITTED] T3572.066
    
    [GRAPHIC] [TIFF OMITTED] T3572.067
    
    [GRAPHIC] [TIFF OMITTED] T3572.068
    
    [GRAPHIC] [TIFF OMITTED] T3572.069
    
    [GRAPHIC] [TIFF OMITTED] T3572.070
    
    [GRAPHIC] [TIFF OMITTED] T3572.071
    
    [GRAPHIC] [TIFF OMITTED] T3572.072
    
    [GRAPHIC] [TIFF OMITTED] T3572.073
    
    [GRAPHIC] [TIFF OMITTED] T3572.074
    
    [GRAPHIC] [TIFF OMITTED] T3572.075
    
    [GRAPHIC] [TIFF OMITTED] T3572.076
    
    [GRAPHIC] [TIFF OMITTED] T3572.077
    
    [GRAPHIC] [TIFF OMITTED] T3572.078
    
    [GRAPHIC] [TIFF OMITTED] T3572.079
    
    [GRAPHIC] [TIFF OMITTED] T3572.080
    
    [GRAPHIC] [TIFF OMITTED] T3572.081
    
    [GRAPHIC] [TIFF OMITTED] T3572.082
    
    [GRAPHIC] [TIFF OMITTED] T3572.083
    
    [GRAPHIC] [TIFF OMITTED] T3572.084
    
    [GRAPHIC] [TIFF OMITTED] T3572.085
    
    [GRAPHIC] [TIFF OMITTED] T3572.086
    
    [GRAPHIC] [TIFF OMITTED] T3572.087
    
    [GRAPHIC] [TIFF OMITTED] T3572.088
    
    [GRAPHIC] [TIFF OMITTED] T3572.089
    
    [GRAPHIC] [TIFF OMITTED] T3572.090
    
    [GRAPHIC] [TIFF OMITTED] T3572.091
    
    [GRAPHIC] [TIFF OMITTED] T3572.092
    
    [GRAPHIC] [TIFF OMITTED] T3572.093
    
    [GRAPHIC] [TIFF OMITTED] T3572.094
    
    [GRAPHIC] [TIFF OMITTED] T3572.095
    
    [GRAPHIC] [TIFF OMITTED] T3572.096
    
    [GRAPHIC] [TIFF OMITTED] T3572.097
    
    [GRAPHIC] [TIFF OMITTED] T3572.098
    
    Mr. Lynch. Thank you, Mr. Bailey.
    I will now yield myself 5 minutes for an opening question. 
Ms. Mittal, in your testimony you indicated that at least the 
first mistake, the first of several mistakes on the part of 
DOD, is that they did not make a good assessment of the 
likelihood that munitions, mustard gas, or any other harmful 
substances were actually on the site. Yet they issued a ``no 
action necessary'' and a rather clean assessment of the site. 
Is that due to the fact that records that could have been 
reviewed were classified, was it just a lack of initiative on 
the part of DOD and the Corps, or was it an assumption made by 
the DOD? Can you determine what was at the basis of that 
significant error on their part?
    Ms. Mittal. What we have seen when we have looked at the 
Corps' decisions to claim that a site does not require further 
action is that oftentimes they just don't look at all of the 
information that they have available to them.
    When they made the decision in 1986, they had actually sent 
information to EPA. They had photographs that they had 
contracted with EPA that they wanted EPA's technical input on. 
Those photographs were not received by EPA until 1993. But the 
Corps had already made a decision in 1986 that they were going 
to go ahead and say that this site didn't need any further 
action.
    That was what we found at the national level as well. When 
we looked at ``no action'' indicated sites across the country, 
we found that in 38 percent of the cases the Corps either 
didn't obtain the information it needed, it had incomplete 
files, it did not conduct the site visits that it needed to do, 
or it just ignored some of the information that it had 
available to it.
    What we found was that a large part of this was because the 
guidance that the Corps had developed was not very explicit on 
what investigators need to do in terms of looking at the 
documents, what they need to document, and how they need to 
assess the documentation. So that is why we recommended that 
they definitely needed to improve their procedures and improve 
their guidance.
    Mr. Lynch. Mr. Bailey, you have been deeply involved in 
this. Do you agree with that assessment? Is that sort of where 
they went wrong?
    Mr. Bailey. I do. I think there have been numerous examples 
where there was information available. I mentioned this 1986 
photographic analysis that I think should have been widely 
shared. There was a great deal of information available that 
didn't get to the right places. I agree with that.
    Mr. Lynch. Let me ask you then, each of you, having been 
involved in the process since 1995 and going forward, do you 
think that DOD has changed their approach? You mentioned 
inadequate guidance existing prior. Have we gotten our act 
together here?
    Ms. Mittal. Well, we know that DOD and the Corps have made 
changes in response to our recommendations. We have not gone 
back in and done an in depth evaluation to see if those changes 
have resulted in positive action. Our concern is that recently 
a State association of waste managers basically came out and 
found that they are still very concerned about the decisions 
that DOD and the Corps are making. So it sounds like the 
problem still exists out there. We just have not gone back and 
taken a look at it.
    Mr. Lynch. Mr. Bailey.
    Mr. Bailey. I have significant concerns that there are some 
potentially serious burial sites that have not been thoroughly 
looked at from the perspective of historical, eyewitness, and 
other information. If we don't look at that information and 
they close it, and it comes up again, then we will know we have 
failed. So I would encourage the Corps and AU to use advanced 
geophysical techniques, to use additional research techniques 
to get to the questions that I have raised in my testimony. My 
written remarks are of six sites that I think are important 
that have not been properly analyzed as your question suggests.
    Also, the destruction of chemical weapons that is going to 
go on this summer, there is a question, I believe, in the 
community about what exactly is going to go on with that 
destruction. I recognize there are national security concerns 
about destroying chemical weapons and that information. But I 
think some of the ANC Commissioners who are going to be 
testifying later have serious concerns about what chemicals are 
coming into the District, what is being destroyed, what is 
going to be leaving the District, and where the chemical 
weapons after they are neutralized are going to be sent for 
ultimate destruction.
    Mr. Lynch. Thank you. At this time, I would like to yield 5 
minutes to the ranking member, Mr. Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman. The GAO issued a 
report on the Spring Valley cleanup and testified before a 
subcommittee back on June 26, 2002. I recognize you may not 
have participated in that. In the GAO's prior testimony before 
Congress, it was stated that there was data on 58 properties in 
the District of Columbia where ``hazards resulting from Federal 
activities have been found.'' Is that still the case and how 
much progress has been made on any of those cases?
    Ms. Mittal. We currently are doing work looking at the 
whole FUDS program. We are collecting information but we have 
not completely analyzed that information yet. We would be happy 
to share that with you as we develop the information that we 
have.
    Mr. Chaffetz. Yes. Given that there were 58 properties 
within the District of Columbia that were identified 
previously, we would certainly appreciate an update on the 
broader scope of everything that is happening within the 
District. We would also appreciate an update on what progress, 
if any, has been made in terms of those cleanups, including the 
locations of those outstanding sites.
    Congress was also told by the GAO in 2002 that ``a number 
of independent uncertainties continue to affect the program of 
the Spring Valley cleanup.'' Can you give us further insight 
into the specifics from your vantage point, Ms. Mittal, 
regarding what has been cleaned up? Can the community be given 
definitive answers about any remaining health risks or costs or 
where your perspective is as to how far along this progress is?
    Ms. Mittal. Unfortunately, we have not done a comprehensive 
assessment of Spring Valley since 2002. Most of the work that I 
have sited is at the national level where we have been looking 
at the FUDS program and the overall Defense Environmental 
Restoration Program.
    Mr. Chaffetz. Is there something that is going to be 
specifically done? Is there a target date as to when you think 
it will be complete? Is it something that is close to 
completion?
    Ms. Mittal. At this point in time, we have not done a 
thorough reassessment of the Spring Valley cleanup.
    Mr. Chaffetz. Is there one in progress?
    Ms. Mittal. There is not one in progress and we have not 
been requested to do one. So I really can't give you the more 
detailed information that you are requesting at this time.
    Mr. Chaffetz. OK. Mr. Bailey, if you had to highlight your 
biggest concern moving forward, if you had to really highlight 
this is my No. 1 concern, what would that be?
    Mr. Bailey. Congressman, the area at the corner of 
Glenbrook Road and Rockwood Parkway--I am a Superfund lawyer 
and I am used to dumps and messes--is a dump site. The trouble 
is that there is credible historic evidence of burial pits that 
could contain chemical weapons, containers of mustard gas, or 
large amounts of explosively configured chemical munitions. If 
the Corps never finds these very deep pits and dispels thoughts 
of maybe there is nothing there, maybe it has all leaked out, 
we will never know.
    Those are inhabited places. The Korean ambassador's 
residence is there. There are other residences around. So until 
the day comes that the Corps can find these deep pits or 
completely dispel the credible evidence that we have, that they 
are not there, then we won't know. Like I said, there will be 
the gnawing feeling that we would have after they left.
    Mr. Chaffetz. As I recall, did you say that you thought 
there were six of these?
    Mr. Bailey. My written testimony goes through the six sites 
that I think are the most important. Obviously, there are many 
areas of concern that have been looked at over the years. In 
terms of priority now, based on my experience of 10 years with 
the project, those are the ones that seem to be the most 
important ones.
    Mr. Chaffetz. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Lynch. The Chair now recognizes the gentlewoman from 
the District of Columbia, Ms. Eleanor Holmes Norton, for 5 
minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. Ms. Mittal, 
do you agree with the new cost estimates for the Army Corps' 2 
year plan that it is using as it proposes to exit?
    Ms. Mittal. The numbers that we have, we got from the 
Corps' report to the Congress. We have not gone back and 
independently evaluated whether those numbers are accurate.
    Ms. Norton. Well, I think that in light of your testimony 
about how the Corps has underestimated the cost of cleanup, 
that would seem to be important to do.
    Mr. Bailey, I am concerned about your testimony about the 
deepest burials. You say they were either buried and may no 
longer, of course, be viable or were poured out. Where would 
they have been poured out?
    Mr. Bailey. Yes, Congresswoman. This is an example of a 
container that at one time was in tact and probably contained a 
phosgene gas. Over time, or even at the time, it was broken and 
the contents were released.
    Those of us familiar with chemical weapons know that 
oftentimes when the chemical weapon is released, it is 
neutralized and no longer harmful. But the trouble is that we 
don't know. We don't know whether there are in tact containers 
buried; we don't know whether there are explosive munitions 
buried that we haven't found.
    Ms. Norton. What did the Army give as the reason for not 
finding the Maurer Pit?
    Mr. Bailey. I concur that it is a difficult technical task 
because some of these things could be down 20 or 30 feet. The 
types of geophysical detection devices that I use in my 
practice in Superfund might not reach.
    Ms. Norton. What about the kind that the Army uses?
    Mr. Bailey. Well, they are the same, by the way. The same 
contractors that the Army used, I used.
    Ms. Norton. So you are saying it doesn't exist, the 
technology doesn't exist?
    Mr. Bailey. The technology at the time did not exist. The 
technology is getting better. One question I hope the committee 
will explore is what are the most advanced techniques that 
could be used to reach down further and see better.
    Ms. Norton. So what would be the evidence then of whether 
or not there was anything harmful there if it was buried that 
deep?
    Mr. Bailey. Well, unfortunately the only evidence you would 
find that it is harmful would be in groundwater monitoring. 
That, I know, is going to be discussed later. If you detect it 
in groundwater monitoring wells, that would be one indication. 
But if these things are in tact, as they have found in tact 
shell elsewhere in this area, you won't know until you actually 
dig it up what is there.
    Ms. Norton. Is it clear that the perchlorate in the 
groundwater is traceable to the ordnance?
    Mr. Bailey. It is likely but not sure. One thing that we do 
know is perchlorate was used in fuses, the fusing of artillery, 
so it seems likely that it comes from there. I know other 
Members have had perchlorate in their districts. It comes from 
a wide variety of things. It is likely, Congresswoman, likely.
    Ms. Norton. Given what you say about a site like this where 
there can be ordnance buried so deep that it might never be 
found, we are faced with the question of whether the Army Corps 
should leave the site. How are we to know whether the Army 
Corps should leave the site and engage in some lesser activity 
such as, for example, monitoring?
    Mr. Bailey. There are two criteria that Superfund types of 
situations would suggest. One is if the groundwater wells that 
are being dug and going to be dug show contaminants that are 
below the risk based criteria set by EPA in Region 3. Then you 
have some assurance that the groundwater that goes eventually 
into the Potomac and other areas would not be a concern, and 
that things aren't leaking into there. It is a much more 
difficult question, Congresswoman, for buried munitions to find 
out what the criteria for that are. But my personal criterion 
is that advanced geophysical techniques are used in the spots 
where historical evidence and photographic evidence show them 
to be. If there is a finding of nothing----
    Ms. Norton. But I thought you said that equipment was not 
available.
    Mr. Bailey. Not at the time. Most of this geophysical 
activity took place 10 years ago. The number of new geophysical 
investigations, I really don't know. But certainly a number of 
the original geophysical mapping was with technology that is 
fairly old.
    Ms. Mittal. May I add to that?
    Ms. Norton. Yes, Ms. Mittal.
    Ms. Mittal. I really think there are three things you need 
to consider based on our experience with sites nationwide.
    One is the transparency of the decisionmaking. I think both 
of you mentioned earlier that it is really important, now as 
the Corps makes a decision to leave the site, that it shares 
the information that it is using to make that decision with 
regulators. One of the things that we have found nationwide was 
that the Corps often doesn't involve the State regulators and 
the EPA in that decisionmaking process. It is very important 
that they do that because the State regulators and EPA can 
ensure that the actions that the Corps has taken comply with 
the regulatory standards. What we have found nationwide is 
that, more often than not, it does not happen. So that 
transparency is really important before the decision to leave 
the site happens.
    The second thing that we would strongly recommend is that 
they should share with the community and the stakeholders a 
long term monitoring strategy. Obviously, there are a lot of 
things that we don't know about this site. We don't know where 
they are buried. But in the event that some new hazard is 
detected in the future, there should be a robust, long term 
monitoring strategy for the site.
    The last thing that I would recommend is that the Corps 
really needs to do extensive outreach with the residents of 
Spring Valley. One of the things that we found when we did our 
nationwide work is that the Corps often doesn't contact the 
property owners and tell them how and what they should do in 
the event that additional contamination is discovered. So we 
believe that before the Corps pulls out, they need to make that 
outreach to the residents. Because it is a partnership. The 
residents can help the Corps identify new hazards if they come 
available, but they have to know who to contact and what to do 
in that kind of situation.
    So those are three things we would definitely recommend.
    Ms. Norton. Thank you. I know I am over time. I just want 
to clarify one thing in that answer if I may, Mr. Chairman.
    What you have just said mentioning regulators suggests that 
the Corps should not leave on the basis of its own evaluation, 
but only after regulators have certified that in their 
independent judgment it is safe to leave at this point. Is that 
your testimony?
    Ms. Mittal. We think that will add to the public's 
confidence in what the Corps has done if the regulators are 
involved in that decisionmaking process.
    Ms. Norton. Thank you very much. Thank you, Mr. Chairman.
    Mr. Lynch. Thank you.
    Let me just again for further clarification ask a last 
question. I know that in my own district back in Massachusetts 
we had a similar situation, although it was private oil 
companies that had caused the problem back then. Sometimes the 
community views Federal agencies as the same. It is all the 
Federal Government. So sometimes, unfairly or not, there is the 
suspicion that there might be collusion there among the Federal 
agencies, especially in cases like this where mistakes have 
been made. The lack of trust can be pernicious.
    We found that in at least one of those cases we were able 
to appoint an independent licensed site professional to be 
chosen by the local community, a licensed and qualified 
professional to look behind all of the data and all of the 
research to really give an extra level of approval to the 
cleanliness or the remediation that had occurred. Is that 
something that you might recommend here?
    Ms. Mittal. I think it makes a lot of sense to do something 
like that. In our work what we have found is that the State 
regulators can oftentimes provide that balance as well. The 
State regulators have a responsibility to ensure that whatever 
cleanup has been done has been done according to State 
requirements. So they can provide that distance between the 
Federal entities and the community. They could function in that 
form as well.
    Mr. Lynch. Right. In closing, I do want to say I was happy 
to hear your recommendations regarding ongoing monitoring. I 
hope the agencies were listening closely to that suggestion 
because I think it is a solid one.
    At this time I would like to yield 5 minutes to the 
gentleman from Missouri, Mr. Clay, for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman. Let me thank you and 
Delegate Norton for prompting this hearing, for bringing this 
important issue to this committee. Delegate Norton is to be 
commended for representing her constituents.
    Ms. Mittal, let me ask you, would you characterize the 
DOD's and the Army Corps' behavior in this issue as 
irresponsible, as reckless, as one that endangers the lives of 
citizens in this community and in others?
    Ms. Mittal. That is a hard question to answer. What we have 
found is that the Spring Valley site is actually one of the 
better sites when you look at the national profile of FUDS 
sites. The Baltimore District is one of the districts that we 
have highlighted. It has been very proactive in reaching out to 
the States that it works with.
    The Corps, EPA, and the District established a partnership, 
which is very rare across the country, to actually work 
together on the site. The Corps also established a means of 
communicating with the public. That is also very rare across 
the country. The other thing that we have noticed is that this 
has been a site that has received extensive funding. It is a 
high priority site, and it receives funding before a lot of the 
other sites nationwide.
    So it is very hard to make that sort of statement knowing 
that there are a lot of positive things that have happened at 
this site which we don't see happening across the country.
    Mr. Clay. Sure. I can certainly share an experience with 
you that I had a couple of years back about a munitions site 
that was active during World War II and was just left there 
with contaminants. In the first congressional district of 
Missouri, we had an environmental cleanup of a munitions plant. 
The community still has some concerns in Saint Louis of 
chemical contamination in the soil, groundwater contamination, 
and the testing of residents for health reasons.
    Could you supply us with documentation on the followup 
testing and assessments that were done on the Saint Louis Army 
Ammunition Plant? It is called the SLAAP site. Can you inform 
me of the followup testing on groundwater and if it has been 
done with the state-of-the-art isotopic analysis that will be 
used in Spring Valley? Will we or do we already have a remedial 
investigation report that summarizes all samplings and all 
cleanup actions taken? Include a baseline human health and 
environmental risk assessment. Could you help me with that?
    Ms. Mittal. I can tell you, sir, that we probably don't 
have that sort of detailed information. We only end up 
collecting that kind of information from the agency when we are 
asked to review a particular site in detail. We have not looked 
at the Saint Louis site in detail, so we would not have that 
information available to us right now. I am sure that the Corps 
could provide that information to you much faster than if we 
went to the Corps and then got the information. So I would 
strongly recommend asking the Corps for that information.
    Mr. Clay. OK. I am asking you, here, in this hearing. I am 
going to ask the Corps next when they get up here.
    Ms. Mittal. We will be happy to work with you.
    Mr. Clay. The experience in Saint Louis has been that they 
did some cleanup of the site and quickly rushed to transfer the 
property to the State of Missouri, who is now trying to peddle 
it off to the city of Saint Louis. That is irresponsible 
behavior when you think about it. This site sat there for 60 
years and they didn't have the decency to clean it up, to make 
it safe for the surrounding community. And now they want to 
peddle it off to the State and to the local community.
    I think it is reckless behavior. I think it is 
irresponsible. You show no respect for health and safety of 
that community. You do have a responsibility when you 
contaminate a community. You need to clean it up. Clean up your 
mess. Clean up your waste that you leave there. Don't just 
leave it for somebody else. It is tragic.
    I can't wait to get to the next panel. I yield back, Mr. 
Chairman.
    Mr. Lynch. Thank you, Mr. Clay. The Chair now recognizes 
the gentleman from Ohio, Mr. Kucinich, for 5 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman and members 
of the committee. My questions go to Ms. Mittal. Did you have 
access to the records of the Department of Defense going back 
to 1916 or 1917?
    Ms. Mittal. When we did our original Spring Valley review, 
we had access to all of the Department's records on the site.
    Mr. Kucinich. When you said onsite what did you mean?
    Ms. Mittal. For the site. Whatever was in the file for the 
site, we had access to that information.
    Mr. Kucinich. Are you confident that you looked at each and 
every record that was available through the Department of 
Defense? There weren't any records that were shielded from your 
attention based on what may have been at that time national 
security concerns that may have continued to exist even though 
it was so many years ago?
    Ms. Mittal. I am quite confident that if we were aware that 
something existed that we would have had access to it and that 
we would have been able to obtain it. I did not personally work 
on the project at that time so I can't confirm everything we 
looked at. But I am quite confident that if we were aware that 
a document existed, we would have obtained it.
    Mr. Kucinich. There weren't any projects labeled top secret 
at that time? I would assume that if you have a munitions and a 
chemical weapons facility that was operating at that time that 
it may have been top secret. Is it possible that any 
information that may exist has not been seen by the GAO that 
might be relevant to this investigation?
    Ms. Mittal. I will double check and get back to you on 
that, sir.
    Mr. Kucinich. I think that would be good if you did that 
with the idea that it may be a separate classification. It 
could have been for just the knowledge of a few people only, 
and because so much time has passed, it may still be there. The 
reason I raise this question is this: Have you had access to 
any longitudinal studies or any epidemiological studies 
relative to people who are in the Spring Valley area and who 
have been in the Spring Valley area since it has been built up?
    Ms. Mittal. When we did the 2002 work, a lot of the studies 
that have happened have happened after that. So we did not. We 
did look at the earlier work that had been done, but not at the 
ones that have been done subsequently.
    Mr. Kucinich. Were students at American University who may 
have been in and around the grounds there over the period of 
time that we have knowledge that this existed, were students 
surveyed or canvassed to see if they may have any adverse 
health effects as a result of coming into contact with some of 
the sites?
    Ms. Mittal. Do you mean as part of our study? No, we did 
not do that.
    Mr. Kucinich. Do you know of any public health studies that 
have been done that go beyond the testing that the University 
testifies to? They tested defined campus populations for 
arsenic poisoning.
    Ms. Mittal. I believe the ATSDR did a study where they 
sampled students that had been around the American University 
Campus at the Children's Development Center. So there was a 
comprehensive study done by ATSDR.
    Mr. Kucinich. But have there been any other studies in 
terms of long term studies? Because some of these chemicals are 
bioaccumulative and you may see effects later on in life and 
not see them immediately.
    Ms. Mittal. I am not aware personally of any of those 
studies.
    Mr. Kucinich. Mr. Chairman, I just call it to your 
attention. You have been doing much more work on this and are 
much more familiar with it than I am, but I just wanted to 
raise the attention of the Chair and members of the committee 
that it might be helpful to find out what other kinds of public 
health studies relate to the population in the Spring Valley 
area, including the students at American University over a 
period of time and people that are graduates of the University. 
Just kind of take a long period of time and see if any 
particular types of incidents show up of certain kinds of 
diseases or ailments.
    My time has almost expired. I am grateful for the work of 
this committee and for GAO's continuing interest in this. The 
fact that this was discovered by accident in 1993 should give 
all of us on this committee pause about other sites that are 
formerly used defense and military munitions sites. So Mr. 
Chairman, thank you very much for this.
    Mr. Lynch. I thank the gentleman. We will followup on the 
health information as to what might be available.
    The Chair now recognizes the gentleman from northern 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. I thank the Chair. I particularly want to 
thank the chairman for holding these hearings that are clearly 
of importance to all of us in the National Capital Region, 
especially those who live in the District of Columbia.
    I have an opening statement, Mr. Chairman, and I would ask 
unanimous consent that it be entered into the record at this 
point.
    Mr. Lynch. Without objection.
    Mr. Connolly. I thank the Chair.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC] [TIFF OMITTED] T3572.099

    Mr. Connolly. Ms. Mittal, how many such sites might there 
be that we know of throughout the United States where we have 
either unexpended ordnance or testing grounds that could 
negatively affect residential communities?
    Ms. Mittal. I would have to go back and double check on how 
many affect residential communities. I do not have that 
information. I do know that there are 4,700 sites that are 
considered formerly used defense sites in the Corps' data base.
    Mr. Connolly. Are you aware of anybody who has segregated 
those 4,700 sites in terms of who they impact?
    Ms. Mittal. I am sure that information can be derived.
    Mr. Connolly. If you could get it back to the committee for 
the record, that would be very helpful because we need to look 
at the scope of the problem.
    If I could followup on something Congressman Clay was 
asking about, when a property owned by the Federal Government, 
any part of the Federal Government including the Army, if it is 
discovered subsequent to the transfer to a local government or 
to a private entity that in fact there is some kind of 
environmental problem, legally who has the obligation to clean 
that up?
    Ms. Mittal. To clean it up? If it is determined that the 
site was owned by the Government, controlled by the Government, 
and that the activity that caused the contamination was a 
result of Government activity, then it is the Federal 
Government that has responsibility under CERCLA to clean it up.
    Mr. Connolly. That is understood in whatever contractual 
arrangement there is in the transfer, is that correct?
    Ms. Mittal. I believe so.
    Mr. Connolly. I had an experience locally, here at the 
Lorton Prisonsite that was transferred to Fairfax County. When 
we discovered certain environmental problems on the property, 
it was the responsibility nonetheless of the Federal 
Government, the transferring agent, to clean up that site. So I 
assume similar provisions apply to any Federal agency that may 
own such land.
    Ms. Mittal. I am familiar with the CERCLA requirements but 
Mr. Bailey might be----
    Mr. Bailey. Congressman, this is a much more unique 
situation. Here the American University Experimental Station 
was leased by the Army from American University. Private land 
owners around the area then conveyed their property to property 
owners. And American University, of course, conveyed property 
subsequently.
    The problem, of course, is that there was a failure to 
disclose a dangerous condition as the law requires. In D.C. law 
and Federal law there is a requirement to disclose a dangerous 
condition. That was never done here. That is the essence of the 
entire problem.
    Mr. Connolly. It is a very good point you are making. Mr. 
Chairman, it sounds to me like this may be one of those areas 
that needs to be clarified in the law. As Ms. Mittal said, 
though we don't know how many impinge on or are connected to 
residential communities, if there are 4,700 sites one can 
imagine there could be other similar such problems.
    Did I understand you, Ms. Mittal, to respond to the 
gentleman's from Ohio query that there has not been a 
comprehensive health assessment of nearby residents and 
students attending American University with respect to this?
    Ms. Mittal. No. There actually have been a couple of 
studies done. One was done by ATSDR. Another one was done by 
Johns Hopkins. What I think the Congressman was asking was 
about long term studies. I am not aware of any long term 
studies.
    Mr. Connolly. Following the long term effects?
    Ms. Mittal. Yes.
    Mr. Connolly. OK, I understand. All right. Like my 
colleagues, if I can, I am going to wait for other questions 
for the next panel. I thank you both for being here.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lynch. I thank the gentleman. There being no further 
Members with additional questions, since we obviously did not 
exhaust all areas of inquiry, I would like to give you each an 
opportunity. You will have just 3 minutes each if there are 
areas of your testimony that have not been touched upon 
adequately, if you want to amplify a certain area that you 
think is very important, or if there is an area that hasn't 
been asked.
    I appreciate the frank testimony by each of our witnesses 
on this panel.
    Ms. Mittal, I would like to allow you 3 minutes if there 
are some areas of concern that you have that haven't been 
touched upon yet at this hearing.
    Ms. Mittal. I appreciate it. Thank you. I think the 
important thing to remember is that these are not easy sites to 
clean up. We do not have comprehensive information. The 
contamination occurred 75 or 90 years ago in some cases. The 
technological capacity that we need to detect, identify, and 
then actually do the cleanup is not always there. We need to 
recognize that this is a very complex and challenging process. 
It is not always easy for the Corps to know everything that 
they possibly need to know when they start cleaning up a site. 
So I just want to emphasize that.
    Mr. Lynch. Thank you. I appreciate that. Mr. Bailey.
    Mr. Bailey. I would just add that the Congresswoman's point 
about the lack of estate involved in this process is something 
that I urge you to cover more. The amount of resources the 
District of Columbia has had to devote to independent oversight 
has been limited. I do sites all around the country, and this 
is a unique site in the respect that other sites have great 
resources--scientific, analytical, and legal--to employ 
independent oversight and make sure that the Corps is doing the 
right job. Unfortunately, that has been lacking in this case, 
in my view. I would urge the committee to question other 
witnesses on that particular point.
    Mr. Lynch. Thank you, Mr. Bailey.
    At this point I would like to dismiss our first panel. 
Thank you for your willingness to come forward and help the 
subcommittee with its work. We bid you good day.
    With that, I would like to call up our second panel. Good 
afternoon and welcome. We want to welcome our second panel and 
thank you for your willingness to come forward and help the 
subcommittee with its work.
    It is the custom before this committee that all witnesses 
providing testimony shall be sworn. May I please ask you to 
rise and raise your right hands?
    [Witnesses sworn.]
    Mr. Lynch. Let the record reflect that all the witnesses 
have answered in the affirmative. As you saw with the first 
panel, the green light will indicate you have 5 minutes to 
summarize your written statements which have been accepted into 
the record. The yellow light indicates that you have 1 minute 
remaining to summarize your statement. The red light means that 
your time for your statement has expired.
    Let me introduce our second panel: Mr. Addison Davis 
assumed his duties as the Deputy Assistant Secretary of the 
Army for Environment, Safety, and Occupational Health in 2005. 
Mr. Davis provides executive leadership for the Army 
Environmental Policy Institute and the Army's four regional 
environmental offices. He serves as the executive agent for a 
number of critical Department of Defense activities.
    Colonel Peter Mueller assumed command of the Baltimore 
District on July 14, 2006. Colonel Mueller's major command and 
staff experience include assignments as the Commander of the 
U.S. Army Corps of Engineers, Charleston District in South 
Carolina. He is a registered professional engineer in the 
Commonwealth of Virginia.
    William C. Early was appointed Acting Regional 
Administrator for the Environmental Protection Agency in April 
2009, temporarily leaving his post as Regional Counsel. Mr. 
Early has received several bronze medals for his efforts in 
support of the regional Hazardous Waste Enforcement Program.
    Mr. George S. Hawkins is the director of the Department of 
Environment for the District of Columbia. He launched and now 
chairs the Mayor's Green Team, which coordinates District 
sustainability programs across more than 40 agencies.
    With that, I would now like to open it up for opening 
statements. Mr. Davis, you are recognized for 5 minutes.

   STATEMENTS OF ADDISON DAVIS, DEPUTY ASSISTANT SECRETARY, 
   ENVIRONMENT, SAFETY, AND OCCUPATIONAL HEALTH, U.S. ARMY; 
COLONEL PETER MUELLER, U.S. ARMY CORPS OF ENGINEERS; WILLIAM C. 
   EARLY, ACTING REGIONAL ADMINISTRATOR, U.S. ENVIRONMENTAL 
   PROTECTION AGENCY; AND GEORGE S. HAWKINS, DIRECTOR, D.C. 
                 DEPARTMENT OF THE ENVIRONMENT

                   STATEMENT OF ADDISON DAVIS

    Mr. Davis. Thank you, Mr. Chairman and members of the 
committee. I am Ted Davis, Deputy Assistant Secretary of the 
Army for Environment, Safety, and Occupational Health. I am 
pleased to have the opportunity to testify today on the Army's 
activities at Spring Valley in Washington, DC. As one of my 
other duties, I serve as the Department's of Defense executive 
agent for the formerly used defense site program under which 
Spring Valley is being addressed.
    My testimony will briefly discuss the FUDS program and the 
issues you identified in your recent letter. I would like to 
say up front that the Army will not leave Spring Valley until 
the work is done. Based on investigation results and ongoing 
efforts, the Army anticipates completion of the majority of the 
field work at Spring Valley at the end of calendar year 2010. 
Although this means that there will be fewer visible signs of 
Army activities like trucks and trailers onsite, the Army 
remains committed to its efforts to protect human health and 
the environment at Spring Valley.
    We understand the concerns of the Spring Valley community 
and assure you and the public that the Army will continue to 
work with our partners, the D.C. Department of the Environment, 
the U.S. Environmental Protection Agency, as well as the 
community, to ensure that the work is completed in accordance 
with prescribed regulatory standards and with the intent to 
ensure the health and human safety of the entire community. We 
will continue to work hard to keep our activities related to 
this site as open and transparent as possible.
    I would also like to acknowledge the role that Congress has 
played in availing the funds necessary to discharge our 
responsibilities at Spring Valley and at other FUDS sites 
around the country. Funding for the FUDS program has stayed 
relatively level for the last several years with approximately 
$11 million a year at the Spring Valley site. However, the 
program has received annual plus ups from Congress that have 
allowed us to accelerate work at high priority sites including 
Spring Valley, which received $4 million above the original 
allocation for fiscal year 2009. So essentially for 2009, we 
had $15 million of funding.
    The FUDS program is part of the overall Defense 
Environmental Restoration Program [DERP], established by the 
Congress in 1986. The U.S. Army Corps of Engineers executes the 
program under my supervision as DOD's executive agent for the 
FUDS program. This program is responsible for more than 9,000 
sites transferred from DOD control prior to 1986.
    Given available resources, the Army uses a risk based 
prioritization approach based onsite specific conditions. The 
Army first addresses those sites with the highest relative 
priority before addressing sites of a lower priority. At this 
point in time, the top priority within the FUDS program is the 
Spring Valley site.
    The Army complies with the Comprehensive Environmental 
Response Compensation and Liability Act [CERCLA], for site 
characterization and remedy implementation at FUDS. We actively 
work with regulators who set and enforce the appropriate 
standards necessary to ascertain the cleanup is protective of 
human health and the environment. Further, the Army engages the 
community to ensure its concerns are understood and that their 
concerns are considered as well in the process.
    The Spring Valley FUDS encompasses the former American 
University Experimental Station where during World War I the 
Army tested chemical agents. It presents, as was mentioned 
already before, the challenge of investigating and remediating 
legacy chemical weapons materials in a densely populated 
metropolitan area.
    Emphasizing safety, accountability, and transparency, the 
Army invited the D.C. Department of Health, later the D.C. 
Department of the Environment, as well as the EPA to enter a 
working partnership with the Army for the Spring Valley 
cleanup. I firmly believe, Mr. Chairman, that our partnership 
at Spring Valley to date is a strong factor in the success of 
our efforts at this FUDS project.
    As previously stated, the Army is nearing a key milestone 
at Spring Valley. Based on the Army's investigative efforts and 
site data collected using the best technology and expertise 
available, the Army developed a cleanup plan that was carefully 
reviewed and agreed upon by those partners. The plan projects 
that the majority of field work will in fact be completed by 
the end of 2010. We will then begin an extensive data review 
and report writing phase which may last up to several years. 
Further, the Army is committed to working collaboratively with 
the community to respond to discoveries of contamination caused 
by past military activities that may pose a threat to human 
health or the environment.
    Last year the Army planed to use the explosive destruction 
system to neutralize chemical munitions and conventional 
munitions that contain a non-chemical agent. We will probably 
be able to go into more detail on that process during our 
discussions.
    In closing, the bottom line from the Army's perspective and 
that of DOD is doing the right thing with regard to the Spring 
Valley site. That has always been our intent and will continue 
to be so in the future. The Army has acted responsibly at this 
complex site. It continues to coordinate actions with its 
partners and strives to keep the community informed on project 
progress.
    I welcome the opportunity to be with you all today for this 
important hearing. We are committed, and look forward to 
working with members of this committee as we continue the 
cleanup efforts at Spring Valley. Thank you very much.
    [The prepared statement of Mr. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.100
    
    [GRAPHIC] [TIFF OMITTED] T3572.101
    
    [GRAPHIC] [TIFF OMITTED] T3572.102
    
    [GRAPHIC] [TIFF OMITTED] T3572.103
    
    [GRAPHIC] [TIFF OMITTED] T3572.104
    
    [GRAPHIC] [TIFF OMITTED] T3572.105
    
    Mr. Lynch. Thank you, sir. Colonel Mueller, you are 
recognized for 5 minutes.

                   STATEMENT OF PETER MUELLER

    Colonel Mueller. Good afternoon, Chairman Lynch and members 
of the subcommittee. I thank you for inviting me to address you 
today on the Spring Valley formerly used defense site located 
in Washington, DC. I am Colonel Pete Mueller, Commander and 
District Engineer for the U.S. Army Corps of Engineers, 
Baltimore District. We serve as the Army's executive agent for 
Spring Valley cleanup activities, and we are responsible for 
managing and overseeing the successful remediation of this 
site.
    Spring Valley, as we have heard, consists of 661 acres in 
northwest Washington that was used by the Army from 1917 to 
1920 to conduct chemical warfare research. It is currently 
occupied by approximately 1,300 residential homes, 22 embassy 
properties, American University, schools, churches, and a small 
number of businesses.
    The Corps began investigating Spring Valley in 1993 to 
address hazards left over from past Department of Defense 
activities. During this time we recovered chemical warfare 
material, munitions, and explosives of concern.
    The technical and stakeholder involvement challenges 
inherent in a chemical warfare material, munitions, and 
explosives of concern investigation within a residential 
community require active planning and communication between the 
Corps, the Environmental Protection Agency, the D.C. 
Departments of Health and of the Environment, and the 
community. As the decisionmaking agency responsible for 
accomplishing this mission, our end goal is to achieve 
agreement between our Spring Valley partners and the community 
to identify, investigate, and safely remove or remediate 
threats to human and environmental health and safety resulting 
from DOD activities.
    Today I will summarize the key aspects of achieving the 
successful mission, and describe our ongoing and future tasks 
at the site.
    A crucial element to successfully clean up any FUDS site is 
learning and understanding its history. Spring Valley is the 
most comprehensively researched site in the history of the FUDS 
program. Our historical research includes interviews with those 
most familiar with its past DOD activities and a 1993 review of 
the American University Experimental Station records, which 
yielded approximately 14,000 line entries of data.
    Another critical component of the project includes the 
array of tools and methods that the partnership uses to 
effectively communicate with the public. First, our project 
team follows the congressionally mandated process that requires 
public input from key partners, stakeholders, and community 
members at each critical decision point. Second, we have 
implemented additional methods that include among others 
establishing a Restoration Advisory Board, tours and regular 
face to face meetings with individual community members, 
mailings, as well as an active Web site.
    As part of our ongoing cleanup activities, we continue to 
test for and remove arsenic contaminated soil from the property 
sites. Today, we have cleaned a total of 106 properties and 
removed more than 24,000 tons of contaminated soil. Over 98 
percent of the approximately 15,000 property owners have agreed 
to the testing and removal program. We expect to finish the 
residential soil removal effort by the end of this calendar 
year.
    We also are managing a very active program to search for 
and recover military munitions. In March 2009, we completed a 
high probability portion of the investigation and removal of 
Pit 3 in the Glenbrook Road area, an area known to contain 
buried chemical munitions. This removal is an important 
accomplishment. As a result of the investigation of Pit 3, we 
have recovered munitions that contain chemical agents. We plan 
to safely treat and neutralize the chemical munitions at the 
Spring Valley Federal property later in 2009 using a mobile 
treatment system. That same technology was used at Spring 
Valley in 2003 to safely destroy 15 chemical munitions. Our 
planned work at this property should conclude later this 
summer.
    We continue to collaborate on and actively investigate 
groundwater in two areas where perchlorate levels exceeded 
guidelines. We have completed two phases of the investigation 
and currently are on our third. The results so far indicate 
that the Dalecarlia Reservoir is not at risk from the 
perchlorate in the groundwater. In phase 3 we will install an 
additional 8 groundwater sampling wells to join the 43 wells 
already in the network.
    While we do have planned milestones for completion of these 
elements of field work, I want to assure the subcommittee that 
there is nothing that prevents us from discussing with the 
partnership the need for additional work. If the partnership 
believes that more needs to be done, then more work will occur. 
With that said, we are planning on completing most of the 
remaining field work by the end of calendar year 2010.
    Though our field work may come to a close, we will continue 
to advance in the congressionally mandated process by 
completing a remedial investigation and feasibility study which 
is collected from our field work and involves consultation with 
stakeholders and the public. We will allow the facts and the 
data to guide future work.
    I assure the committee that we will remain committed to our 
purpose for as long as it takes to get the job done. I am 
highly confident in our ability to achieve our mission for the 
Army and, most importantly, the community of Spring Valley.
    I thank the committee for the opportunity to speak. I am 
prepared to answer any questions.
    [The prepared statement of Colonel Mueller follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.106
    
    [GRAPHIC] [TIFF OMITTED] T3572.107
    
    [GRAPHIC] [TIFF OMITTED] T3572.108
    
    [GRAPHIC] [TIFF OMITTED] T3572.109
    
    [GRAPHIC] [TIFF OMITTED] T3572.110
    
    [GRAPHIC] [TIFF OMITTED] T3572.111
    
    [GRAPHIC] [TIFF OMITTED] T3572.112
    
    Mr. Lynch. Thank you, sir. Mr. Early, you are now 
recognized for 5 minutes.

                 STATEMENT OF WILLIAM C. EARLY

    Mr. Early. Chairman Lynch, Representative Norton, and 
members of the committee, I am Bill Early. I am the Acting 
Regional Administrator for EPA Region 3 in Philadelphia, which 
includes the District of Columbia. With me today is Steven 
Hirsch, the Senior Remedial Project Manager assigned to the 
Spring Valley site cleanup. I am here to provide the committee 
with EPA's perspective on the ongoing efforts to clean up the 
formerly used defense site in the Spring Valley neighborhood in 
the District and to address current issues which are of concern 
to the committee and the public.
    EPA has been providing technical support to the U.S. Army 
for its work at the Spring Valley site since the initial 
discovery of munitions in 1993. Because the area is categorized 
as a FUDS, the U.S. Army Corps of Engineers has been and 
continues to be the Federal agency with responsibility for the 
cleanup.
    The EPA, the Corps, and the District of Columbia have 
developed a partnership management team to work together on the 
Spring Valley cleanup. This partnership continues to function 
effectively with each partner's organization maintaining its 
respective role and mission in the cleanup of the site.
    EPA's participation in the Spring Valley site has been and 
continues to be significant. EPA has expended over $2.6 million 
conducting technical support activities at the site. EPA has 
brought expertise and capabilities which the other partners 
either do not possess or were not able to employ in a timely 
manner.
    EPA has extensive experience in cleaning up contaminated 
soils in residential areas at numerous sites across the 
country. Contaminants of concern at these sites include a 
variety of hazardous substances including arsenic. The 
technical issues presented by Spring Valley soil contamination 
may be challenging but they are not unique.
    The investigation and cleanup work at this site has 
progressed steadily over the years, addressing three primary 
areas of concern: arsenic contamination in soils, buried 
munitions and disposal pits, and potential groundwater 
contamination. However, there are many other tasks yet to be 
completed.
    The partners have developed their priorities with community 
and stakeholder input with the goals of investigating 
contamination and eliminating unacceptable risks to human 
health and the environment in Spring Valley. All significant 
cleanup areas requiring investigation and cleanup have a 
project management schedule. The partners' Spring Valley 
cleanup schedule is a living document which has been amended as 
necessary over the years based uponsite conditions and 
discovery of new information.
    Associated with contaminated soil removal is EPA's issuance 
of letters to residents. These letters explain to home owners 
that all necessary contaminated soil removal actions have been 
completed on their properties. The letters are important to 
home owners, particularly when real estate transactions occur. 
The partners have agreed to give priority to ensuring that each 
home owner affected will receive a letter as soon as possible 
after the work on their property is completed.
    Currently, the Corps is conducting geophysical surveys of a 
large number of properties to investigate the possibility of 
buried munitions and other remnants of the Army's activities 
during World War I. The Corps, EPA, and the District have 
agreed upon a method to determine which properties will be 
geophysically investigated. Unlike the arsenic sampling 
program, geophysics is not planned for every property at this 
site. The partners anticipate that the residential geophysical 
and followup investigations will be completed in 2010.
    The groundwater investigation is continuing. This year the 
Corps will be installing additional shallow wells to better 
understand the nature and extent of perchlorate and other 
chemicals in the groundwater. In addition, the Corps is 
planning to install deep monitoring wells, something not 
previously done at the Spring Valley site.
    Last, I want to address the issue of community involvement 
in the Spring Valley cleanup. As you have heard, the partners 
hold a large number of regularly scheduled meetings. The Corps, 
EPA, and the District are always available to talk or meet with 
residents on an individual basis.
    Besides being investigated and remediated in accordance 
with the National Oil and Hazardous Substances Pollution 
Contingency Plan, there are specific processes the Corps will 
follow in developing documentation that presents all of the 
previous cleanup activities and assessments in a single 
document. As required by the NCP, the Corps intends to prepare 
a remedial investigation report. This document will summarize 
all sampling and cleanup actions taken at the site and will 
include a baseline human health and environmental risk 
assessment.
    The risk assessment is a key document in determining if all 
necessary cleanup actions have been conducted or what 
additional cleanup actions need to be completed to address 
unacceptable risks. The document and the proposed remedial 
action plan will be available for public comment and will be 
the subject of one or two public meetings.
    In closing, EPA believes that the Spring Valley cleanup is 
progressing in a positive manner. Community and stakeholder 
concerns are heard and are being addressed.
    Thank you very much for the opportunity to speak before the 
committee.
    [The prepared statement of Mr. Early follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.113
    
    [GRAPHIC] [TIFF OMITTED] T3572.114
    
    [GRAPHIC] [TIFF OMITTED] T3572.115
    
    [GRAPHIC] [TIFF OMITTED] T3572.116
    
    [GRAPHIC] [TIFF OMITTED] T3572.117
    
    Mr. Lynch. Thank you, Mr. Early. Mr. Hawkins, you are now 
recognized for 5 minutes.

                 STATEMENT OF GEORGE S. HAWKINS

    Mr. Hawkins. Good afternoon, Chairman Lynch; Congressman 
Chaffetz; my Congressman, Congressman Norton; and members of 
the committee. My name is George Hawkins. I am the director of 
the District Department of the Environment. Thank you for the 
opportunity to present testimony at this oversight hearing on 
the Environmental Restoration Program at the Spring Valley 
formerly used defense site. I am joined by Alex Bako, who is 
the division director for our Toxic Substances Division, as 
well as Jim Sweeney, who is the branch chief of our Site 
Remediation Branch.
    My objectives this afternoon are to describe from our 
perspective the manner in which the District Department of the 
Environment works in association with the U.S. Army Corps of 
Engineers and the U.S. Environmental Protection Agency to 
facilitate the ongoing planning and execution of work 
activities at Spring Valley. Furthermore, I would like to 
emphasize some of the recent and ongoing efforts that DDOE, the 
District Department of the Environment, has established to 
foster and encourage communication with District residents.
    As you may know, the District of Columbia works to resolve 
this matter under a 1994 agreement with the Department of 
Defense. This agreement provides reimbursement to the District 
for providing technical review and guidance at installation 
restoration projects at both active military facilities and 
formerly used defense sites within the District. Our goal under 
this review process is to ensure that restoration work is 
performed in compliance with District of Columbia environmental 
laws and regulations and that work is protective of the 
environment and human health. Currently, our attention is 
mainly focused on three sites: the Washington Navy Yard, which 
is the only Superfund site in the District; Bolling Air Force 
Base; and, of course, Spring Valley.
    The District's environmental program has been involved with 
the Spring Valley project since June 1995 when two 
environmental specialists in our agency were hired after a 
record decision was issued stating that no further action was 
needed at the site. It was the work of these two District staff 
members that ultimately resulted in the Army Corps returning to 
Spring Valley and that has brought us to where we are today.
    Since the Corps' return, we have been involved in a 
partnering process with them and the U.S. Environmental 
Protection Agency to ensure that the highest quality of work is 
done to investigate and remediate the contaminants left behind 
by the Army after World War I testing in Spring Valley. The 
partners meet on a monthly basis and no work is initiated, no 
work is initiated, unless or until all three partners agree on 
how to proceed. If either the District, the EPA, or both 
disagrees with the proposed plan or procedure, the action will 
not and does not occur. Currently, there are two major issues 
on which our attention is focused: the ongoing groundwater 
study and the planned onsite destruction of chemical weapons.
    We have been in discussions for some time concerning plans 
for the next phase of groundwater investigation. The District 
has absolutely been at the table and has had strong views about 
how this should be conducted. Recently, we have come to an 
agreement on how this work will in fact be accomplished. We 
expect that a new round of groundwater sampling will occur 
later this summer or in the early fall. The District is 
interested in the groundwater results for two principal 
reasons: The first is the obvious need to determine if 
contamination, particularly perchlorate, is potentially 
affecting the Dalecarlia Reservoir, which supplies drinking 
water to the entire District of Columbia. Even though sampling 
so far has indicated that the reservoir has not been affected, 
we have been concerned that perchlorate contamination may reach 
the deep aquifer. For that reason, we have insisted that the 
Corps conduct deep well sampling, as has been noted, for the 
first time at this site.
    The second reason to continue groundwater sampling is 
hopefully to assist in locating the source of the perchlorate 
that has been detected in the groundwater at higher levels near 
the American University campus. Locating the source of the 
perchlorate might help us in locating one or more yet to be 
discovered burial pits that have been mentioned in some of the 
historical archives.
    In response to the proposed onsite destruction of chemical 
weapons, DDOE has been briefed on the Corps' of Engineers 
conceptual plan for this activity. Clearly, the use of 
explosives for onsite destruction of munitions requires the 
cooperation of several District agencies besides the Department 
of the Environment. The District's Homeland Security and 
Emergency Management Agency, the Metropolitan Police 
Department, the Fire Department, and the Health Department have 
all been briefed by the Corps of Engineers and all agencies are 
currently reviewing the plans for this event. District 
government sign off on this plan will occur after reviews have 
been completed by all agencies. If any agency has concerns on 
the plan, then approval will not occur until all uncertainties 
or questions have been satisfactorily addressed.
    While these are two major issues right now, there are 
several other efforts at Spring Valley which appear to be near 
completion. We believe it is premature to suggest that work is 
complete. What will be completed in 2010 is planned field work. 
Our view is that there is likely to be more work suggested in 
the future as the result of sampling that has not yet been 
conducted. It is planned field work that will be completed, not 
any additional field work that is indicated as necessary either 
by the next round of groundwater sampling or additional site 
reviews done near the Dalecarlia Reservoir.
    We have thought it is prudent, however, to look at what 
ought to be the criteria to close the site. The issue of 
closure criteria was asked once before in 1995. As I mentioned, 
it was D.C.'s environmental program that determined additional 
work was necessary and the Corps returned.
    Since then, tremendous work has been done. Burial pits and 
chemical weapons have been found. Tens of thousands of samples 
have been analyzed. Scores of properties have been remediated. 
Additional scores of properties have been geophysically 
surveyed. Many of these properties have been dug up in the hope 
of finding munitions.
    Still, work needs to be done. This is a unique site. There 
are tough questions and it is complicated. We asked the right 
and tough questions in 1995 and we will continue to ask those 
questions before there is any decision to walk away.
    The Department of the Environment pledges to continue to 
act aggressively as the environmental advocate for the citizens 
of Spring Valley. We devoted many resources to the cleanup of 
the site. We have planned activities bringing specialized 
groundwater and hazardous waste personnel and have just hired a 
toxicologist who will bring new resources to bear on decisions 
for this site.
    I realize I have used my time. We have continued to also 
work more with the citizens. We are planning additional 
meetings one on one with the neighborhood Commissioners near 
the site. We have devoted a new part of our Web site to this 
site specifically to make sure all information that is needed 
for the site is available to the citizens.
    I am here to answer any questions.
    [The prepared statement of Mr. Hawkins follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.118
    
    [GRAPHIC] [TIFF OMITTED] T3572.119
    
    [GRAPHIC] [TIFF OMITTED] T3572.120
    
    [GRAPHIC] [TIFF OMITTED] T3572.121
    
    [GRAPHIC] [TIFF OMITTED] T3572.122
    
    [GRAPHIC] [TIFF OMITTED] T3572.123
    
    Mr. Lynch. Thank you, Mr. Hawkins. Let me begin by saying 
that I think the community has sounded some measure of alarm 
over the idea that planned field work is concluding. I think 
the reaction is actually born in the experience they have had 
already. There was a clean bill of health given to the site and 
then they found more contamination, significant contamination. 
A thorough job hadn't been done in the original analysis so 
there is a lack of trust. But it is probably well deserved.
    Let me ask, from a technological standpoint, are we using 
every state-of-the-art technology to investigate the site that 
might be available? Mr. Davis.
    Mr. Davis. I would say yes we are. In fact, some of the 
technology that was discussed earlier was tried and used 
unsuccessfully based on the interference in the local area. The 
ground penetrating radar that was discussed was in fact tried 
at the site. Again, that is one of the challenges we have, Mr. 
Chairman.
    When you go from one site to another, you try to adapt the 
technologies that are available, to include emerging 
technologies, that might be used on that site based on the 
source and types of contamination that we are looking for. But 
we don't have blinders on. We are continuing to look for new 
technologies that we can bring to bear.
    I think that in our groundwater monitoring plan that we are 
going to maybe talk about a little bit later, we are bringing 
in some things there that will enhance our ability to better 
determine if there is any groundwater contamination.
    The only other thing I would tell you is that we have a 
National Defense Center for Energy and the Environment, which 
really does a lot of research and development projects for the 
DOD. Projects associated with cleanup at many of our sites, 
both our active sites and our formerly used defense sites, are 
part of that process. So we are continuing to look at new 
technologies.
    We are also partnering with the private sector. I think 
many of you may know that in many cases the expertise that we 
bring to these sites is done by private contractors. So we seek 
to get the best of those contractors and the best technology 
available to bring to these sites.
    Mr. Lynch. Colonel, do you feel comfortable with that 
assessment in terms of all the technology that is available 
being used?
    Colonel Mueller. Yes sir, I do. In fact, I think it also 
goes back to the partnership and the discussions that we can 
have where each of our agencies will bring different ideas and 
different experiences to help seek the best alternatives.
    We will tend to use industry standards. One thing that we 
have hesitated to do is to use something that is going through 
research and development because we want to use proven 
techniques.
    One example where the community involvement I think drove 
us to another technology was with the arsenic removal. The 
community indicated they wanted an alternative to digging up 
yards. So we went back to our engineering and research 
laboratory in Mississippi where they have been using phyllo 
remediation. They had had proven tests where phyllo remediation 
using plants could actually extract arsenic from the soil. This 
was one application that was fairly modern that we used. And we 
have actually used that to clean up 19 properties.
    Mr. Lynch. OK. I believe in reading the testimony last 
night that as recently as a year ago we have discovered 
munitions. That is fairly recent, and we have been on this site 
for a while. It just seems to me premature to say, OK, we are 
done with our planned field work and we are going to move on. I 
just think that there is a need to provide further activity 
here. I know you have a lot of points of interest, and you have 
a lot of monitoring wells. I am just concerned whether or not 
this decision to conclude field work is premature given the 
recent findings.
    So I did like the testimony offered by Ms. Mittal from GAO 
earlier in this hearing about a very aggressive and robust 
monitoring process that would continue on the site at least in 
the near future. Let me ask you, is that something that you 
envision?
    I also want to know about destroying some of these 
munitions onsite. That must cause a considerable amount of 
anxiety in the neighborhood that you are operating in. Is there 
not a better technology? I know transporting chemical weapons 
is a dicey proposition in any circumstances. You have a heavily 
populated neighborhood here. Is there not a better way to do 
this than destroying them onsite, notifying the neighborhood, 
and scaring the heck out of them? There has to be a better way 
than this, guys.
    Mr. Davis. Yes, sir. If I could maybe address the EDS, the 
explosive detonation system, that we are going to use for the 
destruction first? This is a technology that has been proven. 
We have used it throughout the country. We have had over 1,500 
documented uses of this system to destroy chemical munitions at 
different sites throughout the country. We currently have in 
storage on Federal property adjacent to Sibley Hospital the 
munitions that would be destroyed during this destruction 
process.
    Mr. Lynch. Are they conventional or are they chemical 
weapons.
    Mr. Davis. They are a combination of both, sir. In the 2003 
destruction, a similar system was brought in and set up using 
all the safety control mechanisms that are available. We will 
be doing something similar. We have some enhanced monitoring 
devices now that are newer than the ones we used back in 2003. 
But the site will be set up.
    Again, and this was mentioned by my colleagues here at the 
witness table, a tremendous amount of coordination has already 
gone into and will continue to go into planning for and 
conducting this process using all of the existing technologies 
that are available and then some. I think also the safety 
procedures will be in place as well as working with the local 
first responders within the District to be onsite and to 
provide their assistance.
    We again have done this at locations throughout the 
country. We currently do not make a habit of transporting 
chemical munitions from one State or from one jurisdiction to 
another for destruction. That is one of the reasons why this 
exportable system was developed in the first place. We could 
bring it into a site, safely set it up, destroy the munitions 
on site, and then minimize the risk associated with that 
particular activity.
    Mr. Lynch. OK. My time has expired. I just might offer the 
possibility that the committee may want to go out and visit the 
site and look at that operation because I am not entirely 
convinced. OK?
    Mr. Davis. Sir, normally when we do these around the 
country we have a Leaders' Day set up once the site is 
completely set up. We will coordinate with the committee so 
that they can come out. We will walk them through the system 
and explain all the procedures and protocols that we will have 
in place before we actually begin the destruction process.
    Mr. Lynch. All right. I have abused my time. Thank you, Mr. 
Secretary.
    I am going to yield 5 minutes to our ranking member, Mr. 
Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman. Mr. Early, if I can 
start with you, are the residents and those who work in Spring 
Valley safe?
    Mr. Early. That is something I think we are continuing to 
address----
    Mr. Chaffetz. So you can't say yes?
    Mr. Early. Well, I think we are moving to address the 
concerns that the citizens have. There were a number of things 
that had been pointed out at that particular site that we have 
been, as a result of the partnership here, addressing. There 
are a number of concerns, soil contamination, groundwater 
contamination, and explosives, that I think we have been 
looking at.
    Mr. Chaffetz. So the answer is not yes. Is that correct?
    Mr. Early. Well, I think we are moving to make them safe. I 
think we, as a result of the partnership that we have developed 
here at this site, which I think is unique to this type of 
situation, are moving to diligently address all of the hazards 
that are present at this site and to address them in a 
responsible manner.
    Mr. Chaffetz. Colonel Mueller, are the residents and people 
who work there safe? Yes or no.
    Colonel Mueller. Sir, they are getting safer every day. We 
would not be there if the site was totally safe. Obviously, we 
are looking to make sure that we find everything that we 
possibly can that is left over from that time. I am comfortable 
that we have all the controls and measures in place to make 
that community as safe as it can be until we complete the 
study.
    Mr. Chaffetz. Would you live there right now?
    Colonel Mueller. If I had a paycheck that would allow me to 
live there, yes sir, I would.
    Mr. Chaffetz. Let me ask Mr. Hawkins here, have the 
residents been exposed to contaminants that would increase the 
risk of disease or dysfunction?
    Mr. Hawkins. It is possible that they have been exposed to 
contaminants that could cause a health problem. As you have 
heard, there have been a series of short term health studies in 
the past. In the past D.C. Council session, $250,000 has been 
allotted to our agency in fiscal year 2010 to do a more in 
depth health study that had been suggested by Johns Hopkins. 
That is not enough to do the full study that had been 
envisioned by the previous Johns Hopkins effort. We think it is 
well worth it and are searching to determine whether other 
funding sources are available.
    The question of whether anyone has been harmed, my guess 
would be is that there are health consequences to the 
contaminants that have been at the site as there are in many 
sites around the country. I believe we are taking the steps 
necessary to eliminate those threats.
    Mr. Chaffetz. Thank you. Secretary Davis, this has taken 
certainly considerably longer than anybody wished. What went 
wrong? Why is this taking so long?
    Mr. Davis. I would say that I don't think anyone has done 
anything wrong when you look at the program that is in place 
right now. I share your concerns, just like everyone else, 
about the time that it is taking. But as you go around the 
country, as I get the opportunity to do, and look at a variety 
of sites, in many cases you see the same thing.
    Mr. Chaffetz. That is not very reassuring. Is there a flaw 
in the procedure? On the one hand you admire a group and an 
agency to take an estimate. The risk is always that you aren't 
going to meet that estimate. But now, reflecting back, what 
went wrong? Why is it taking so long? Is it a procedural 
failure? If this is happening above and beyond Spring Valley, 
why is this a flaw that continues to happen all across the 
country?
    Mr. Davis. Again, I don't see it as a flaw. But what I 
would tell you is that a lot of these sites that we are dealing 
with like Spring Valley go back 60, 70, or 80 years. You are 
dealing with incomplete information. For instance, we have 
misperceptions today. We watch shows like NCIS or some of these 
other shows where they solve three different crimes in the span 
of 45 minutes with perfect information. In many cases, we are 
dealing with imperfections here. We are dealing with 
information that no longer exists or records that were not kept 
to begin with.
    So as we go back through our archival efforts to try to 
piece together everything that happened, that forms the basis 
for the initiation of efforts at these sites. I can assure you 
that it is a comprehensive effort that includes records; it 
includes, if they are still alive, actual interviews with 
people who were on these sites; overhead photography; and a 
whole host of things that have taken place and provided 
documentation. From that, we develop the initial estimate on 
what work needs to be done based on the nature and type of 
contamination at that site. Then we proceed with the cleanup 
effort.
    Once you start digging in the dirt, you find different 
things. All these munitions that have been found at different 
locations throughout the country, we will go out and do 
geophysical mapping to try to identify various anomalies that 
might be there. When you go out and you actually start digging 
things up, you may not dig up what you thought was there. So it 
may take a little bit longer than you had originally 
anticipated.
    So it is a deliberate process. In many cases, as we are 
going through that process, we are continuing the archival 
research, we are continuing to engage people that might have 
been there, adding new information into the situation to 
develop it as precisely as we can to guide the effort forward.
    The other consideration, if I might add, sir, is that we 
also continue our concern for those people that are working at 
the site and those people that are in the local community. In 
some cases, we just can't go out and start our work. We have to 
get a right of entry to go into that property. In some cases, 
as we have seen here at Spring Valley, for whatever reason the 
residents or the owners of some of those properties are 
reluctant to provide us a right of entry so we can go in there 
and do the investigative work and the follow on cleanup if 
needed.
    So there are a lot of different variations here that impact 
the timetable and our ability to get the work done.
    Mr. Chaffetz. Thank you. Thank you, Mr. Chairman. I 
appreciate the extra time.
    Mr. Lynch. I thank the gentleman. The Chair now recognizes 
the gentlelady from the District of Columbia, Ms. Eleanor 
Holmes Norton, for 5 minutes.
    Ms. Norton. I recognize the position, particularly that the 
Corps is put in, in dealing with their own munitions very 
deeply buried. So the only thing we can judge, it seems to me, 
is what standards or criteria are being used to determine when 
to leave and when the job is done.
    Let us take the 2-year work plan. Who has seen the 2-year 
work plan, since you have said that you believe the job will be 
done in 2 years? Where is the 2-year work plan?
    Colonel Mueller. Ma'am, the work plan is one that is built 
by the partners. The work plan is developed by the partners. I 
would have to step back a minute to describe exactly where we 
are. I will try to do that quickly.
    The Area of Interest Taskforce that involved all the 
partners looked at all the issues, everything that we had 
characterized. That taskforce came up with 28 areas of 
interest. To date, we have analyzed 14 of those. There are 14 
areas of interest still to be evaluated. All the partners, as 
we go through the findings and the results of what has been 
investigated, then take a final look at what else may need to 
be done. So really the area of interest evaluation for the 
overall site is what has driven that.
    But there is a different process for the arsenic. Then 
there are also geophysical surveys of properties that are a 
part of that work plan.
    Ms. Norton. Are you using the work plan now? Is that what 
you are saying? I am trying to determine what it is that makes 
you know that in 2 years you will be through. What is the exit 
plan that you are using?
    Colonel Mueller. OK. Yes, ma'am. Based on where we are 
today, we have analyzed firstly the historical studies and then 
we have analyzed everything we can't identify, items of work 
that need to be done. Once we complete this work there will be 
a remedial investigation feasibility study that is published. 
We will analyze all the work that has happened to date. That 
gets vetted with each of the agencies including D.C., the EPA, 
and the community. It will include a 30 day review by the 
public. That document will characterize all the work that has 
been done.
    Ms. Norton. When will the material be available to the 
public?
    Colonel Mueller. Ma'am, that would not be complete until we 
complete the physical work onsite. So as we mentioned, that 
current work plan identifies actions that we are taking by 
people on the ground, contractors and workers cleaning and 
investigating the site. The feasibility study and the final 
remedial investigation is a document that will characterize the 
whole site and will then also go out for public review and 
agency review. That will determine, again, if there is 
additional work or if we have completed.
    Mr. Davis. Ma'am, if I could add one quick comment on that? 
The work that is being done now has in fact been work that was 
vetted with the partners and developed in consultation with the 
regulatory agencies to drive the way forward. It has been 
briefed to the community via the Restoration Advisory Board 
meetings that take place on a monthly basis. So it is more of a 
work in progress now where we have goals and objectives that 
have been established.
    Ms. Norton. It is a work in progress that is public?
    Mr. Davis. Yes, ma'am.
    Ms. Norton. If the community or the District wanted to know 
what weapons you have discovered onsite, would you give them a 
list of such weapons? In fact, why hasn't a list of these 
weapons been given to the community?
    They are old. There has been some sense of a national 
security concern. Indeed, those words have been used. It is 
very difficult to know how there could be national security 
concerns about World War I munitions.
    Mr. Davis. I think it goes back to the fact, ma'am, that 
there are chemical agent related activities that we are dealing 
with here. These are procedures that were set in place back 
prior to the 2003 destruction period. We had required 
individuals who were part of the partnership and other 
stakeholders in the community, to include the Restoration 
Advisory Board, to sign non-disclosure statements so that there 
was an opportunity to provide that information to selected 
members within the community and within the agencies involved 
in the cleanup. We would be more than happy to provide the 
community with a list.
    Ms. Norton. I don't understand the national security 
concerns at all about World War I weapons. I don't understand 
that this is anything but a way to keep the information from 
the public. We are not dealing with weapons that are in use 
today. Maybe the Army would be embarrassed that these weapons 
were ever used. But I don't understand national security 
concerns. What is the national security concern about a World 
War I munition that certainly isn't anywhere used today? It 
certainly has not been used for decades.
    You are dealing with the most advanced Army and the most 
advanced scientific country in the world where these would be, 
if anything, antiques. So why not let us know what the antiques 
are, Mr. Davis?
    Mr. Davis. Ma'am, if I could do two things? One, let me 
provide the members of the committee with that list. And two, 
let me take that back with us and review it internally and get 
you an answer as quickly as we can.
    Ms. Norton. I very much appreciate it. I understand the 
District even signs off on didactic materials; that is signing 
off on nothing. The notion of not even providing between 
agencies the names of what the materials are and what the 
weapons are this long after the fact, we are almost a century 
later.
    Mr. Davis. I understand your point completely. In the 
spirit of transparency, let me take that one on personally to 
go back and see if we can work that.
    Ms. Norton. I very much appreciate that.
    You have said, Mr. Mueller, you just testified that the 
work plan is available. But the community tells us that they 
have not been able to get to see the work plan. See, this is 
why there is continuing distrust in the community. If there is 
a work plan, if we are now supposed to be in an era of 
transparency, why not share it? In fact, put it online. What is 
the secret here?
    Colonel Mueller. Ma'am, there is no secret. The work plans 
that are analyzed by the partners take place at the partnering 
meetings on a monthly basis. That is reviewed.
    Ms. Norton. With only some people being able to see them in 
the community and others not?
    Colonel Mueller. Members of the community through the 
Restoration Advisory Board are the members that are able to 
attend those.
    Ms. Norton. No, you are in a community where this 
information was withheld for decades. You are now about to 
leave. As you leave, surely we could get the greatest 
transparency possible so that the community would finally have 
confidence in the work that the Corps has done.
    Now, I don't understand. I would like you to tell me why 
only some members of the community can see the work plan. What 
is secret about the work plan so that you have to have a 
security clearance to see it?
    Colonel Mueller. Ma'am, I will verify that. I have no 
knowledge of anybody that is required to have a security 
clearance to enter discussion.
    Ms. Norton. Have you seen it, Mr. Hawkins?
    Mr. Hawkins. There is more than one document that you are 
talking about. There are work plans of the actual physical 
work, what sites are being looked at, where monitoring is being 
done. That, as far as I know, is accessible.
    There is information about the munitions that have been 
found and how it would be remediated that, since I do not have 
a security clearance and I refuse to sign a non-disclosure that 
says I could not report information to the Mayor, I don't see. 
However, the Metropolitan Police Department and the Fire 
Department do see that.
    Ms. Norton. That is what I want to know. Maybe we are 
dealing with truly dangerous chemicals here. Because this is a 
city official and he can't even disclose it to his principal. 
And no one can see it but people you designate.
    Mr. Davis. Yes, ma'am. Like I said, we will take that on 
and go back and see if we can't work through it.
    Mr. Hawkins. Congresswoman, I also wanted to make a comment 
on the District's view of this concept that in 2010 we will be 
walking away or anyone will be walking away from this site. 
That is certainly not the District's intention. My experience 
is, and I have to say, Mr. Chair, that I was an EPA Superfund 
lawyer in Boston, in New England, when the license site 
professional program was introduced so I have done these sites 
as an enforcement lawyer, that they are often iterative. Our 
view as to what will be completed in 2010 is currently planned 
work based on the data that is currently in hand.
    We know that as of today another round of groundwater 
sampling, including deep groundwater that has not been done 
before, is about to commence. There is an entire area next to 
the reservoir that is going to be geophysically surveyed as 
well as an intrusive review done if needed. That data hasn't 
been collected yet. That may generate an additional round of 
work that is not currently contemplated.
    Our view is that work generated by monitoring that is 
currently planned does not need to wait if it is so indicated 
until a full RIFS is done. That is a very standard process to 
take all the information that has been collected, put it into 
one document, and prepare the investigation and the study of 
what is necessary. That is a standard Superfund step. That is 
unusual in this case because it is being done much nearer to 
the end of the process.
    Ms. Norton. But all we want to see is what we can see now. 
I am not asking to see what you haven't completed yet. I 
understand what you are saying.
    Mr. Hawkins. Our view is that there is nothing completed in 
2010 except for existing projects that are planned.
    Ms. Norton. There is a work plan which some people have 
seen and some people have not. That has been the testimony 
here, Mr. Hawkins. That has been the testimony that some 
members of this Board have seen it and some members have not.
    Colonel Mueller. Ma'am, if I may? Every active work plan is 
available at the repository at the Palisades Library in the 
community. So the work plans are all available to the public. 
There is no requirement for a security clearance to be able to 
see those work plans.
    Mr. Lynch. With all due respect, I couldn't find that 
library with a map.
    Let me just formalize what has just happened here. First, 
we need to have the subcommittee informed, so we need to have 
any reports. Right now I don't believe there is requirement 
that you notify Congress, so I am going to make that request 
formally on the record. Second, you will receive that request 
in writing. Third, we are going to file a request to declassify 
the information that might be in your repository with respect 
to the history of this site and what weapons, chemical or 
otherwise, might be stored on the site. That way, it will 
actually save you, Mr. Secretary, from making some decision 
that might not be in line with your superiors. Maybe we will 
just do it that way.
    You could short circuit that process greatly for us if you 
voluntarily offered information that would address Ms. Eleanor 
Holmes Norton's request. We would welcome that. But we want to 
be notified fully and promptly of any activity on the site and 
any information that might be available.
    I share Ms. Holmes Norton's concerns that we are dealing 
with World War I armaments. So the declassification should be a 
fairly simple matter with the passage of time. Although I do 
know that in some countries they still store mustard gas as an 
active munition. But anyway, we want that information.
    I would like at this point to recognize the gentleman from 
Missouri, Mr. Clay, for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman. Let me start with 
Secretary Davis. Mr. Davis, we have a site in Missouri called 
the SLAAP site, which stands for the Saint Louis Army 
Ammunition Plant. Could you help me with the followup testing 
on groundwater? Let me know if it has been done with the state-
of-the-art isotopic analysis that will be used in Spring 
Valley. Will we or do we already have a remedial investigation 
report that summarizes all samplings and all cleanup actions 
taken, and that includes a baseline human health and 
environmental risk assessment? Would you be able to provide 
that to this committee for me?
    Mr. Davis. Sir, what I will do is go back and do research 
on that particular location and provide the information that we 
have available to you as expeditiously as we can. If we need 
to, we can come over and brief you and your staff.
    Mr. Clay. I would appreciate that.
    Reading the GAO's study about the primary threats at the 
site, there were buried munitions, elevated arsenic, and the 
laboratory waste. Perchlorate was also found onsite. Normally, 
what should happen? How should we deal with this for a 
community? What do we do to take them out of danger, to get 
that exposure away from them? What should happen?
    Mr. Davis. Well, what we have done here is to go through 
first a detailed archival research effort to try to gain as 
much information as we could about the site.
    To get to the perchlorate issue that you brought up at the 
end, we have a series of monitoring wells that are in place 
right now. We are going to begin another monitoring period this 
summer to draw samples from those wells. We are going to put in 
an additional series of wells to give us a better indication of 
how we can characterize the perchlorate.
    The big issue of concern is whether or not it is going to 
impact the drinking water supply for the District at the 
Dalecarlia Reservoir. Our geophysical assessment right now 
based on the hydrology of the site indicates that any 
perchlorate is going to not go into the Dalecarlia Reservoir 
but it may go into the Potomac. So we believe that by enhancing 
the number of wells and by reinitiating our sampling program, 
we will be able to determine better than we know right now what 
the potential source of that perchlorate might be and where it 
may be moving underneath the surface.
    With regard to the arsenic remediation, that has been a 
major effort on our part to go out and actually do soil 
sampling at a multitude of properties on the site. Where we 
have found levels that exceed the EPA standard, we have gone in 
and removed that arsenic from those sites. In many cases, it 
means disturbing existing landscaping, which we then go back 
and work with the land owners to seek restoration.
    As far as the munitions, in many cases we go through a 
variety of techniques, digital geomapping systems, that we have 
available that will help us go in and determine where specific 
anomalies might be that will require excavation from the soil. 
In other cases, we will look at other indicators from earlier 
photographs of the site where we may have depressions or scars 
in the ground that may give us an indication that there was a 
burial there of some of these munitions or other munitions 
related to constituents. Again, this is part of the ongoing 
effort that we have right now, sir.
    Mr. Clay. Thank you for that. Let me go to Colonel Mueller 
real quickly. It was mentioned earlier that these cleanup 
projects are in a pinch as far as budgeting concerns, that you 
don't get enough money to do all of the projects. Is that 
accurate?
    Colonel Mueller. Sir, the requirements that we have had at 
Spring Valley, from the Army Corps' of Engineers perspective we 
have continued to receive adequate funding for the work plans 
that we have in place.
    Mr. Clay. No, I mean around the country. I guess there is 
just so much money to go around.
    Mr. Davis. Sir, if I could interject? Colonel Mueller has 
the Baltimore District so he is dealing with those areas here 
locally. But when you look at what we are dealing with 
nationwide, as was mentioned by the GAO representative earlier, 
we have about 4,700 sites out there that are being looked at 
right now. Our annual budget for the FUDS program in its 
entirety is about $250 million. With the amount of work that is 
remaining to be done, the current cost to complete is in excess 
of $17 billion based on our current estimates. So it is going 
to be a while before we get the work completed that needs to be 
done based on just what we know today.
    Mr. Clay. Did FUDS receive any additional funding from the 
American Recovery and Reinvestment Act? FUSRAP did.
    Mr. Davis. We did not receive anything from that.
    Mr. Clay. FUSRAP got a bump but not FUDS?
    Mr. Davis. That is correct. We received about $33 million 
for fiscal year 2009 from the Congress as a plus up. As I 
mentioned earlier, $4 million of that went directly to the 
Spring Valley project.
    Mr. Clay. OK. Thank you. Thank you and I yield back.
    Ms. Norton [presiding]. Thank you, Mr. Clay. I would like 
very much to talk about the question of finality, criteria that 
I have been trying to probe.
    Mr. Hawkins, I very much appreciate your testimony about 
the $50,000. Normally when there is such a situation, there is 
access to a very large State agency. State budgets are larger. 
I know that the District may be at some disadvantage.
    What I am looking for is for all of you to work together, 
but for all of you to monitor each other. Some of you are more 
able to monitor than others. That is what I am getting at. I 
appreciate that the EPA, as noted in the testimony Mr. Early 
gave, has worked in partnership with the Corps, the community, 
and of course our own agency.
    At the end of the day, who is the regulator? Who signs off? 
Who decides that the area is clear and safe?
    Mr. Early. Well, as I said in my initial testimony, because 
this is a FUDS, the Corps is responsible and the Army is 
responsible for taking the lead. EPA is a support agency here.
    Ms. Norton. This really compounds my question. I don't mind 
the Corps, the District Department of the Environment, in fact, 
I think there is some good to be said for the technical support 
and I appreciate that, and EPA all being in bed together. But, 
you see, when it comes to someone deciding in an independent 
fashion that the work is done, I am having trouble finding an 
independent agent here especially if the Corps is the lead for 
its own investigation.
    Mr. Hawkins. I would have two comments on that score.
    Ms. Norton. That is what Mr. Early just said. The Corps is 
the lead.
    Mr. Hawkins. The Corps is the lead in the cleanup. The 
District's view is that the cleanup will not be done until the 
District agrees that it is done, first. Second, my experience 
on all cleanups is there is no such thing as a done site.
    Ms. Norton. No, I accept that, Mr. Hawkins. That has been 
the testimony here, the monitoring and the testing. I accept 
that. So please forgive our layman's sense of done. But the way 
we are coming to done is the community has come to us and said 
they are going to be done in 2 years. They are going to be done 
digging. They are going to be done doing the work they were 
doing on the site. After that, you say there will be something 
but it is different.
    I am trying to put myself in their position. I appreciate 
that you have made us understand that there is no leaving, no 
exit in that sense. But somebody had to decide that in 2 years 
what is being done now will no longer be necessary. That is 
what I am trying to understand. How did that decision get made? 
On what basis was that decision made? How do we know? Why not 2 
years ago? Why not 4 years from now? How did that decision get 
made? How will we know, once you go to the other phase of what 
you do, that you should have left at that time? Who will tell 
us?
    Colonel Mueller. Ma'am, that is a complicated question 
because of the different aspects of the project. Clearly, there 
is an answer for that for the arsenic that we are removing and 
have removed from 106 properties. There is an answer for the 
munitions and explosives of concern based on the partners 
agreement on the 28 areas of interest that we are 
investigating, and there is another answer for the geophysics 
that we are using to look for other anomalies on properties. So 
ma'am, I don't have an easy answer for that.
    Ms. Norton. I don't understand why that is even a problem. 
Whoever is the decider can in fact get the information. I am 
not asking you about the different kinds of information. My 
question is very simple. It is a very common sense question 
that a citizen would ask. Who has the independence to make the 
judgment that the time to quit the phase you are in is over? 
Who is that entity, particularly given that the Corps has left 
twice and had to be called back?
    Mr. Hawkins, the fact that they won't go until you say so, 
it is just the way the supremacy clause works? This is a 
Federal agency. They have left before. So the District will 
continue to say we find x, y, and z here. But this is a Federal 
agency. Therefore, I have to find what Federal entity or 
independent entity is going to be responsible for making a very 
critical decision. After more than 15 years of work that has 
been very controversial, where there is still great 
dissatisfaction with transparency, where people still don't 
know what the weapons are, where you are in a residential 
community, it is fair to ask who is going to make that decision 
and how independent is that entity?
    Mr. Davis. Ma'am, could I add two points to that question? 
First and foremost, as far as the work that is being done and 
the planning that goes into that work, I think it has been well 
stated here in terms of the partnership that has been 
undertaken between EPA, D.C., and the Corps of Engineers, the 
work that is done by the Corps is in fact done to the 
appropriate standards established by EPA.
    Ms. Norton. So at EPA, Mr. Early, you then do an 
independent evaluation yourself as to whether or not the Corps 
has met those standards?
    Mr. Early. Yes. EPA is responsible for reviewing the 
actions that are proposed and determining the applicable 
standards both at the Federal and the State level to figure out 
if there are more stringent standards that the State has 
applied that are applicable to the site. Then in our role in 
terms of concurring, we either concur with what is being 
proposed in terms of the finality of the action or we would say 
that there are some additional things that need to be made to 
meet the standards that are applying at both the Federal and 
the State levels.
    Ms. Norton. So the State has higher standards, in this case 
the District of Columbia, that could be adopted?
    Mr. Early. They can. They could have higher standards that 
could go beyond and be more stringent than what the Federal 
standards are.
    Ms. Norton. And EPA would adopt those standards?
    Mr. Early. Well, we would make sure in terms of any cleanup 
activities that are being undertaken that those would be 
complied with over and above the Federal standards.
    Ms. Norton. Would the partners have an objection to an 
independent study? The silence is deafening. You have been 
working very hard.
    Mr. Davis. If I could just jump in on that one? We have an 
independent representative that provides input to the community 
on behalf of the Restoration Advisory Board.
    Ms. Norton. Who is that?
    Mr. Davis. I don't have his name but I can provide that to 
you all.
    Ms. Norton. I am sorry, I am looking for somebody above it 
all who will look at the work and say that the work has been 
done or not.
    Mr. Davis. Yes, ma'am. If I could just continue? When the 
work that has been determined and the work plan gets to a point 
in time when it is completed, if you will, the investigative 
work and the removal work is done, and any long term monitoring 
is in place, that is when this process that was mentioned 
earlier, this remedial investigation feasibility study, is 
done. That basically is a very all-encompassing document that 
will go back and look at all the work that has been done up 
until that point in time, determine what it achieved or, as Mr. 
Early said, did not achieve. From that document it will give us 
an indication as to whether or not we need to continue work in 
certain areas where there may be gaps in the work that had been 
done.
    That document will go out for public review and comment. We 
will again take onboard the comments from the partners and from 
the community and then go back and do any additional work that 
needs to be done that was either not done or that was 
identified that needed to be done as part of this process.
    Ultimately though, getting to the answer to your question, 
once we reach that agreement and the work is completed, then 
the Corps of Engineers as the lead agent will issue a record of 
decision. That will again document what work was done to ensure 
health and human safety.
    Ms. Norton. Did you issue such a decision the two times you 
previously left the site?
    Mr. Davis. I believe at least on one of those occasions one 
was in fact issued. I will go back and verify that.
    Ms. Norton. Who evaluated that decision? Did the EPA 
evaluate that decision--it seems to be its job--when they left 
twice before?
    Mr. Early. I am not sure based on my consultation whether 
or not we concurred on the RAD [phonetic] back in 1995 when it 
happened.
    Ms. Norton. I can see the position. We have the EPA here. 
We look to the EPA as the Federal agency for environmental 
matters. I see the relationship of course with the State, in 
this case the District. It does seem to me that some of the 
problems raised here have been problems about whether or not 
the EPA, at least now, is intent upon doing its job as a 
Federal regulatory agency. Ultimately, they can do their plan 
and their decision to leave as just described all they want to. 
But the Corps has no jurisdiction to declare an area 
environmentally safe at all. They are being regulated as far as 
we are concerned. So we have to look to the EPA, which doesn't 
have the best reputation in this Spring Valley episode, to do 
its job.
    I cannot say to you that I have been convinced yet, we have 
some time to go, that an independent evaluation will not be 
necessary. The reason that anybody would even think of that is 
the sad story of the lack of transparency all this time, 
including what the chairman had to say about finding out what 
the weapons are, weapons that are so old and obsolete that they 
cannot possibly be matters of national security. Yet people 
have been told that is why they can't know what the weapons 
are.
    You see, when you hear that kind of thing, you lose 
confidence in process. You think there must be something secret 
here. You had better find out more. They really are hiding 
things. That is why I think what the chairman has done to clear 
the air there is going to be very important to do unless you 
can yourself do it. Because it is going to be necessary for 
everything to come out.
    We don't see any reason why, when we are talking about 
weapons that are a century old, anybody with a straight face 
would use the term national security concern. We just don't 
understand it. I am on the Homeland Security Committee and I 
hear legitimate national security concerns all the time, but I 
haven't heard any explained here today.
    Let me go on to a few more questions. Are there any other 
areas of the District of Columbia where the Army has either any 
intelligence or any suspicion that there are chemical weapons 
buried?
    Mr. Davis. Ma'am, while there are other FUDS sites in the 
District itself, there are no other sites at this point in time 
that we believe have chemical munitions.
    Ms. Norton. I know there were some weapons in northeast. I 
know they were in southeast where the Giant now is. I know that 
has been cleaned up or the Giant wouldn't be there. I just want 
to know for the record, are there any more sites where there 
are weapons? You say there are none? That is your testimony?
    Mr. Davis. That is correct. Not to my knowledge. There is 
one other site that we have in the District that has long term 
monitoring underway. It is one of the sites I think that you 
mentioned that have been previously cleaned up. But other than 
that, no, there are no other sites that we know of at the 
present that contain chemical munitions.
    Ms. Norton. Has the Corps ever had to use the equipment you 
propose to use in Spring Valley to destroy weapons in a 
residential community before or close to a residential 
community?
    Mr. Davis. Ma'am, the technology we are going to use for 
the destruction is similar to the technology that was used in 
Spring Valley in a residential setting back in 2003 when we 
destroyed 15 chemical munitions.
    Ms. Norton. So you are using the same equipment to destroy 
this ordnance that you have all along been using or have used 
before here?
    Mr. Davis. That is correct. We have done over 1,500 
destruction missions without incident.
    Ms. Norton. Finally, could I ask you, Mr. Early, why Spring 
Valley has not been on your National Priorities List?
    Mr. Early. It is our position that it hasn't at this point 
in time been necessary to put Spring Valley on the National 
Priorities List, although that is an option that we continue to 
look at. Based upon the experience that the agency has had with 
Spring Valley, the partnership that we have developed in terms 
of the checks and balances that I think we have developed, and 
the fact that the Spring Valley site has been given priority 
funding with regard to the cleanup at the Army as well as 
sufficient funds being provided by EPA to make sure that the 
work is done in an appropriate manner, we haven't seen fit to 
list the site on the NPL.
    Ms. Norton. So it is not dangerous enough at this point so 
far? We would be pleased to know that.
    Mr. Early. Well, we think this site is being adequately 
addressed in terms of the funding and the resources that are 
being devoted to the site at this point in time. As I said, 
this is something that we continue to monitor in the event that 
we think that is not the case. That is an option that the 
agency is prepared to consider.
    Ms. Norton. The final question for me, the one unanswered 
question that I certainly do not understand, has to do with the 
troubling levels of perchlorate that have been found in the 
groundwater. I do not believe a source has been identified. It 
is hard to understand how you are leaving the area with 
perchlorate having been found in the groundwater, and we don't 
even know where it is coming from. Could you explain?
    Mr. Davis. Ma'am, if I could just elaborate on that a 
little bit? Of all the wells that we have in place there, we 
did have two detections. One was at about 144 parts per 
billion, which was in the vicinity of Glenbrook Road monitoring 
well in the AU area.
    Ms. Norton. I am talking about a source.
    Mr. Davis. Right. First and foremost, the wells are helping 
us detect where the perchlorate might be located. Then from 
that we have procedures that we will use.
    Ms. Norton. Wait a minute. Stop so I can understand, 
please. So the wells are helping us to understand where it is 
located? We don't know where the perchlorate comes from?
    Mr. Davis. Not at the present. That is the purpose of the 
additional monitoring procedures that we will undertake this 
summer with the placement of some additional monitoring wells. 
Some of these wells are going to be at a deeper depth. Again, 
what we are really trying to do is to determine what is the 
source. But at the same time, we want to try to map underneath 
the surface where we think the perchlorate is moving and where 
it came from.
    Ms. Norton. Is that the most serious problem you will have 
to continue to monitor?
    Mr. Davis. At this point it will be.
    Ms. Norton. Yes, Mr. Hawkins?
    Mr. Hawkins. I was going to agree that the reason that our 
view is that it is premature to say that activities at the site 
are at a closing point is because this second round of 
monitoring for perchlorate that has been planned, including 
deep wells, is exactly, as you have suggested, the attempt to 
find the source. If a source is found, there are new steps of 
work that will be needed to remove that source. We just do not 
know that.
    Ms. Norton. You mean we don't even know if it is ordnance 
or if it is from sources that the Army Corps has been trying to 
rid us of? You don't even know that? They could be from 
something else?
    Mr. Davis. That is correct.
    Ms. Norton. Well, that is obviously very disturbing because 
this is when we found it.
    Finally, could you tell me how the members of this Board 
are chosen? This Residential Advisory Board has been very 
controversial in the community, yet it was established in order 
to establish communication with the community. How are the 
members appointed? How are they chosen?
    Colonel Mueller. Ma'am, the community chooses their 
representatives for the committee. They have 14 community 
members.
    Ms. Norton. What do they do, have an election?
    Colonel Mueller. Yes, ma'am.
    Ms. Norton. They have an election to choose who the members 
of the Residential Advisory Board would be? I thought you had 
something to do with that.
    Colonel Mueller. Ma'am, the Army Corps of Engineers is a 
member of the RAB, a non-voting member, but the community 
maintains or obtains 14 of their own members.
    Ms. Norton. I am just trying to find out who appoints them. 
I know where they come from. Who appoints them?
    Colonel Mueller. Ma'am, the Army Corps of Engineers does 
not appoint members of the RAB.
    Ms. Norton. All right. Somebody tell me who appoints them. 
Somebody has to be the appointing authority. I am just trying 
to find who that is.
    Colonel Mueller. Ma'am, when the Restoration Advisory Board 
was originally established in 2001, we did recruit the initial 
members. We asked for community members who were interested. 
But after that initial time in 2001, they identify their own.
    Ms. Norton. So you appointed the first ones. As people 
left, then who was the decisionmaker?
    Colonel Mueller. The RAB members themselves.
    Ms. Norton. Oh, I see. It is from inside the Board itself.
    Colonel Mueller. Yes, ma'am.
    Ms. Norton. Thank you very much. We have kept you a long 
time because this is a complicated issue. We have appreciated 
your patience in answering questions. The panel is dismissed.
    We ask for the next panel to come forward. We will swear 
you in quickly because it is the committee's policy that all 
witnesses are sworn in. Would you all raise your right hands?
    [Witnesses sworn.]
    Ms. Norton. Please be seated. This the final panel. It is 
an important panel. It comes from the community and those who 
have been most affected and most involved. President of 
American University, Cornelius Kerwin is the first alumnus to 
serve. He focuses on public policy. Chairman Greg Beumel, the 
community co-chair of the Residential Advisory Board, became 
co-chair in 2005 and has served since 2002. Nan Wells, advisory 
neighborhood commissioner, represents a community of 2,000 
residents living in Spring Valley. Thomas Smith, a 30 year 
resident of Spring Valley, represents the Spring Valley 
American University and Westover Place neighborhoods. Kent 
Slowinski is a founding member of the Environmental Heath 
Group, which of course investigates environmental health 
problems. Finally, James Barton is president of Underwater 
Ordnance Recovery.
    I am going to ask us to proceed forthwith with President 
Kerwin first.

    STATEMENTS OF CORNELIUS M. KERWIN, PRESIDENT, AMERICAN 
  UNIVERSITY; NAN SHELBY WELLS, ANC COMMISSIONER 3D03; THOMAS 
 SMITH, ANC COMMISSIONER 3D02; KENT SLOWINSKI, FORMER MEMBER, 
 SPRING VALLEY RESTORATION ADVISORY BOARD; GREGORY A. BEUMEL, 
 CHAIRMAN, SPRING VALLEY RESTORATION ADVISORY BOARD; AND JAMES 
     BARTON, PRESIDENT, UNDERWATER ORDNANCE RECOVERY, INC.

                STATEMENT OF CORNELIUS M. KERWIN

    Mr. Kerwin. Thank you, Congresswoman Norton. I will be 
brief. My name is Neil Kerwin. I have been president of 
American University for 4 years, serving as interim president 
from August 2005 to July 2007, and president from July 2007 
until now. I have been a member of the American University 
community for nearly 40 years.
    We appreciate this committee's ongoing interest in this 
project, knowing as we do that it is motivated by a concern for 
the safety and well-being of everyone in northwest Washington.
    American University participated in hearings on the Corps' 
of Engineers project that were held in July 2001 by the House 
Subcommittee on the District of Columbia. At that time, we 
provided a substantial number of historical documents and 
communications dating from 1917 through 2001 on the use of our 
campus by the U.S. Government and the U.S. Army. The compendium 
is a valuable resource of project background and information 
provided by American University, which was one of 10 properties 
in Spring Valley used by the U.S. Government in an effort to 
support the Nation during wartime.
    Fundamental to our action and our position on these matters 
are a few overarching truths. American University did not 
produce, test, bury, nor conceal chemical munitions. The war 
material produced, tested, and buried around Spring Valley and 
American University are the responsibility of the U.S. 
Government, the U.S. Army, the Corps of Engineers, and now the 
partners with which it works. American University has made 
available all information to the Army Corps of Engineers 
regarding the cleanup.
    The University has endured years of dislocation, suspended 
operations, business interruption, unreimbursed costs in the 
millions of dollars, and periodic safety concerns as the Army 
Corps has conducted its multi-year effort to find and remove 
items from that era.
    It has been our consistent position to act with an 
abundance of caution to ensure the safety of all. Senior 
members of the University have been assigned to work with the 
Army Corps and to monitor their activity. We have hired outside 
expertise to independently assess the Army Corps' work, to 
fully protect our campus, and to ensure the safety of the 
surrounding area.
    To assess risk, we hired Dr. Paul Chrostowski almost 10 
years ago as an advisor to the University to review the 
recommendations and the work performed by the Corps and their 
contractors. He is an environmental engineer, an applied 
toxicologist, and a chemist whose expertise has benefited the 
University and the surrounding community on matters ranging 
from the establishment of a stringent arsenic cleanup standard 
to recommending additional safety measures on the Corps' 
containment structure on Glenbrook Road.
    AU's ongoing information sharing efforts have expanded over 
the past 20 years and have included campus memoranda, open 
meetings, new articles, materials posted electronically, and 
historical documents in the University archives. The University 
Web site devoted to the Army Corps' activity has been an 
information resource with links and, we believe, helpful 
information. That site now includes more than 80 communications 
that have been posted with project updates since the year 2000.
    As risks have warranted, we have targeted specific 
populations with pertinent information and taken additional 
measures over the past 10 years such as hosting forums, 
meetings, and discussions; instructing our staff, faculty, and 
students how to shelter in place; suspending operations on high 
use athletic fields for 2 years; closing our Child Development 
Center, which serves as a daycare center and educational 
facility for our faculty's and staff's children, for 9 years; 
and testing defined campus populations for arsenic poisoning. 
These are only a few examples.
    Every outreach that we have done has been based on the 
nature of a particular situation and the potential risk at 
hand. A high probability occurrence might require a rapid 
response with specific safety protocols while a low probability 
occurrence might prompt a general sharing of information.
    AU's archives are open and accessible to anyone and have 
been used extensively by journalists, government agencies, and 
community members to learn more about the history of these 
activities in northwest Washington. The only archived documents 
not publically available are Board of Trustees materials that 
deal with the American University as a private corporation and 
include confidential information related to governance, 
personnel matters, third party, and financial information.
    To respond to questions whether these private records might 
contain pertinent information, in April 2005 AU Counsel made 
these records available to independent parties from the 
Environmental Protection Agency. They reviewed Trustee minutes 
and information from that period and agreed there is no 
information included that might help the Corps locate 
additional burial sites or to assist in the cleanup and 
remediation. This was reported to the Restoration Advisory 
Board [RAB], in May 2005 and in a partnering meeting.
    We want to thank you for your help, Congresswoman Norton, 
over the years to help ensure the affected areas in northwest 
Washington are completely cleaned of all World War I debris and 
byproducts and are fully and safely restored. We will, we have, 
and we continue to do all we can to assist in that effort.
    [The prepared statement of Mr. Kerwin follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.124
    
    [GRAPHIC] [TIFF OMITTED] T3572.125
    
    [GRAPHIC] [TIFF OMITTED] T3572.126
    
    [GRAPHIC] [TIFF OMITTED] T3572.127
    
    Ms. Norton. Thank you very much, Mr. Kerwin. We are going 
to go to Ms. Wells. Before we do, would everybody shift to the 
left a little bit? The expert witness just arrived so we have a 
little crowded table there. Ms. Wells.

                 STATEMENT OF NAN SHELBY WELLS

    Ms. Wells. Thank you so much, Congresswoman Norton. I just 
want to thank you again for organizing the hearing today. Your 
leadership on behalf of the Spring Valley residents has been 
crucial in presenting our concerns and making certain that the 
cleanup is thorough and complete before the Army Corps of 
Engineers leaves the area again. My comments today will be 
brief.
    As the ANC commissioner for a large part of Spring Valley 
extending to Dalecarlia Parkway, I have joined with my fellow 
Commissioner Tom Smith in working with the local and Federal 
officials responsible for the ongoing effort to remove World 
War I munitions, chemical weapons, and other contamination from 
the community in which we live.
    The project schedule which was attached to my testimony and 
which we have discussed indicates that the Army plans to finish 
in fiscal year 2010, which ends September 30, 2010. That is 
only about 16 months from now so we have less than 2 years. In 
2011, the Army would complete reports on the status of the 
cleanup and the level of remaining contamination. However, it 
is not clear that they will continue any of the more active 
investigations.
    Furthermore, ongoing project activities and remediation 
have been limited by insufficient funding. I realize there has 
been testimony to the contrary here but I base that on my 
participation in the partnering meetings where I know that 
things have been set aside or things have been put to a lower 
priority, even though in my view they should be followed up.
    There is considerable concern that the Army will end the 
active investigations before the final reports that contain the 
required information on the cleanup are completed and reviewed 
by independent experts. I want to say how important it is, and 
I totally agree with you, that we have independent experts 
verify the accuracy and thoroughness of the effort.
    In order to successfully complete this project, we need the 
following: No. 1, I would recommend an independent and expert 
review of the project's methods and data by the National 
Academy of Sciences.
    No. 2, we need additional funding sufficient to complete 
these necessary investigations and the remediation activities. 
I might add that American University was able to get an earmark 
to complete some of the work on their area. I think it was in 
fiscal year 2008.
    Then No. 3, we need disclosure of all environmental data to 
the public. I will note later on that while we can participate 
now in the partnering meetings and we are now able to speak to 
our fellow commissioners and to other public officials, we 
cannot release any information from the partnering meetings to 
the public until it has been specifically sort of declassified.
    No. 4, and this follows along with this, we need increased 
transparency, accountability, and oversight from all of the 
participating agencies and involved institutions including the 
D.C. Department of the Environment, the EPA, the Army Corps, 
and American University. We need to work together on these 
issues.
    The Army began the cleanup, as everyone has stated, 16 
years ago but there was no organized exploration of the extent 
of the contamination until the accidental discovery of the 
munitions and chemical filled weapons in the Spring Valley West 
section. There is, however, evidence that various institutions 
and the Army Corps knew at least as early as 1986 that there 
were possible burial sites.
    The AUES site and operations were extensive. Some of the 
written sources I have seen say that Camp Leach involved as 
many as 100,000 soldiers and 1,200 chemists and engineers. It 
has also been described as the world's second largest poison 
gas facility in 1917 and 1918.
    As has been stated before, the Army Corps declared Spring 
Valley safe and left. Again in 1995 they declared it safe. But 
the D.C. Department of Health and the dedicated professionals 
in that Department contested that decision. Following that, the 
large toxic sites on Glenbrook Road were located in 1998.
    However, the Army withdrew from a part of that site in 2002 
after 4 years when the contractor who owned the property 
withdrew permission for access to his property. They left the 
site unfinished. I might note that this has been an issue on a 
variety of properties. Looking for various bunkers and other 
sources, they have not used their walk in authority. We have a 
recent case in which they wanted to place a groundwater well, a 
deep well, and they went through 5 years of negotiations with 
the property owners until EPA threatened to march in. The 
family finally agreed to allow some monitoring to go on. So I 
would argue that this has delayed the project because they have 
been unwilling to use the authority they have.
    There is also concern about the Army's plans to destroy 
chemical munitions in the neighborhood as I understand just now 
in August of this year. Although the Army has destroyed 
munitions using this same technology before, it is my 
understanding, and I am pretty certain about this, this will be 
the first time the process will be used to destroy explosively 
configured munitions that could release arsene gas.
    It is a highly toxic chemical for which there is no 
antidote. The Army currently plans to destroy the munitions and 
neutralize the chemicals left behind in an area just behind 
Sibley Hospital, near the Grand Oaks Retirement Residence, near 
the D.C. reservoir, and next to a Spring Valley residential 
neighborhood. We have urged that the destruction be undertaken 
at a Federal facility, of which there are many in D.C. and the 
surrounding area.
    Similar destruction, I believe, in the past has only been 
done on military bases or was done once in a very lightly 
populated area of Arkansas. But they have never destroyed 
munitions, explosively configured, containing arsene gas. Now 
they do have and have set up special conditions to contain the 
release of gas but nonetheless you have a hospital, a 
retirement home, and a residential neighborhood.
    I might point out some of the inconsistencies that we face 
as ANC commissioners. On the one hand, we are told that the 
storage and destruction of these materials, explosively 
configured arsene, are so safe that the process can take place 
in this location. However, we are told that the materials are 
so dangerous that we cannot know exactly what they are. This 
inconsistency doesn't inspire confidence.
    In 2007, when I asked for a report on the results of the 
prior investigations carried out on Glenbrook Road from 1999 to 
2002, I was told that report had never been completed and 
therefore could not be released so I could not see it. It is 
still not available. That investigation ended in 2002.
    Groundwater monitoring is critically important both in 
determining the levels of contamination and in locating 
potential sites of contamination, as the Congresswoman has 
stated. The project has installed a large number of groundwater 
monitoring wells around the reservoir and the University. 
However, groundwater in these wells has not been tested since 
2007, almost 2\1/2\ years ago. There are plans to test the 
wells in 2009, but it is June and to date no testing has been 
done. Additional groundwater wells are scheduled to be 
installed this year in order to further determine the flow of 
groundwater near the reservoir. However, still no regular 
schedule for testing groundwater has been proposed.
    My experience, contrary to some of the testimony of the GAO 
representative, is that too much of the information on the 
contamination discovered thus far has been restricted, often 
for reasons that don't make sense. National security is 
frequently cited as the reason data and other information 
cannot be shared, that we cannot share it with others, and that 
indeed much of it can't be shared with us. We are told that the 
information would be useful to terrorists.
    I am well aware of national security concerns. I held a 
secret clearance while I worked for the Armed Forces 
Radiobiology Research Institute. I understand security needs, 
but I have never seen the kind of security excuses, if you 
will, that we have been receiving for the information we need.
    When I first began attending the meetings of the partnering 
group which you have heard much about, the agencies and 
whatnot, that was only when I became an elected ANC official. 
Only local officials, members of the agencies, or members of 
the RAB are able to attend the partnering meetings. I was not 
allowed to discuss at first any of the information, when I 
first did this, that I learned with my fellow ANC 
commissioners, including Tom Smith, other public officials, or 
members of the public. Even agency representatives were not 
allowed to share the information they were given at the 
meetings with their supervisors.
    Sometimes it appears that the partnership serves to 
restrict challenges to Army plans and to delay progress of the 
plans.
    In addition to concerns about health and safety, the 
location of a major D.C. reservoir near the area of 
contamination leads to questions about the possible impact on 
residents in other areas of the city. In testimony presented on 
April 12, 2006 to the D.C. Committee on Public Works and 
Environment, Colonel Robert J. Davis, Commander, Baltimore 
District, U.S. Army Corps of Engineers, described why the 
testing of groundwater especially for contaminants like 
perchlorate is so important.
    Colonel Davis stated the following at the hearing: ``As 
discussed at the Spring Valley RAB meeting last night, our 
groundwater elevation data does suggest that some limited 
groundwater is likely seeping into the reservoir at specific 
locations. However, we expect this volume of groundwater to be 
minute compared to Potomac River water entering the reservoir 
every day, and we have had no significant detections in 
groundwater wells closest to the reservoir. Our phase 2 
investigation later this year and next year will provide much 
more information as to whether any Spring Valley groundwater 
contamination detected upgradient of the reservoir could pose a 
future risk.''
    While Tom Smith and I now have the ability to discuss 
information with public officials and they can discuss 
information with others in the agencies, agency and public 
access to information remains limited. The D.C. Department of 
the Environment is not allowed to know the chemicals that will 
be brought into D.C. for use in the destruction of the 
munitions this summer, nor have they been given the identity of 
the chemicals in the hazardous waste that will be produced.
    Our concerns in Spring Valley are not that different from 
many FUDS communities. Having spent most of my professional 
life working with scientists and with universities in support 
of science, I am not here to criticize or complain. It is 
crucial that all the parties and agencies work together to 
complete the successful remediation of this site which my 
neighbors and I call home. We must make certain that public 
health and safety are protected and that the data verifying the 
cleanup is released to the public.
    Thank you very much for this opportunity to appear before 
the committee.
    [The prepared statement of Ms. Wells follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.128
    
    [GRAPHIC] [TIFF OMITTED] T3572.129
    
    [GRAPHIC] [TIFF OMITTED] T3572.130
    
    [GRAPHIC] [TIFF OMITTED] T3572.131
    
    Ms. Norton. Thank you very much, Ms. Wells.
    I want to alert this panel that in 20 minutes to a half 
hour even the voteless Delegate from the District of Columbia 
gets to vote. There is a vote in the committee and I wrote a 
memorandum that has resulted in my being able to vote there. So 
I would like to get this hearing completed before then. I am 
going to ask everyone to briefly summarize their testimony so I 
can make sure we get to everybody before I have to leave 
myself.
    Mr. Smith, I am very glad to hear from you now.

                   STATEMENT OF THOMAS SMITH

    Mr. Smith. Good afternoon. My name is Thomas Smith. I have 
lived in Spring Valley for nearly 30 years, as you mentioned. 
For the last 3, I have served as an ANC commissioner 
representing Spring Valley and part of the American University 
campus.
    Few if any residents knew that the AU campus was used as 
the second largest chemical weapons research and testing 
facility in the world during World War I until munitions were 
discovered in 1993 during new home construction. Only then did 
residents learn that weapons had been found previously during 
construction on the AU campus and that the Army was aware of 
the potential dangers that existed in our neighborhood. 
Whatever their reasons, both American University and the Army 
kept this information concealed. This pattern of non-disclosure 
by both institutions continues today.
    The decision by the Corps to leave the community 
prematurely in 1995 along with the way the Corps has interacted 
with the community since returning to the neighborhood, 
including the operations of the Army-created RAB, has cast a 
long shadow of doubt on the credibility of the Corps. These 
concerns are heightened when reviewing the experiences of so 
many other communities across the country dealing with similar 
problems.
    The Corps has not yet finished assessing various areas of 
interest in the community or dealing with the serious 
groundwater problem. Decisions are being made about whether 
certain areas of interest thought to be possible sites of 
contamination, burial, or anomalies are worth additional 
investigation. The new 2010 deadline is an incentive to 
neglect, as before, the type of investigation that is needed to 
ensure our community is safe.
    The team charged with the responsibility of searching for 
and identifying potential areas of interest, the Area of 
Interest Taskforce referred to earlier by Colonel Mueller, has 
been disbanded, according to the Army because one of the 
members has retired.
    Much information about this project is hidden from the 
public on the basis of national security, enabling the Corps to 
escape the public scrutiny and accountability that should be a 
routine part of this cleanup process. Too often we are forced 
to play the role of amateur sleuth and be laser precise in our 
language even to learn the most basic of information about this 
cleanup.
    There are too many unanswered questions to limit the 
investigation at this time. We have the high levels of 
perchlorate in the groundwater. The groundwater has not been 
monitored for 2 years, unlike in some other States dealing with 
the military's pollution of the groundwater. The nearly 30 jugs 
of mustard gas near a burial site in the archival photographs 
and said to be a deep burial site have never been found. There 
are questions about whether an upcoming investigation at the 
Dalecarlia Woods will cover a large enough area.
    Additional questions are being raised about the limits of 
the equipment used to conduct the geophysical investigations of 
key sites in the community and whether more sophisticated but 
expensive technology might provide the information of what is 
underground at deeper levels. There is historical evidence of 
another burial pit near the campus, known as the Courier or 
Osborne Pit, thought to contain the nearly $800,000 worth of 
chemical weapons in 1918 dollars. And there is no indication 
that an aggressive effort is in place to locate this pit.
    Residents have long sought testing of the air in their 
homes, especially given the high concentration of arsenic in 
the soil and the presence of arsene gas in munitions. The Corps 
has said that such testing was not technologically feasible, 
yet the Army conducted such air testing in containment 
structures when investigating a recent burial pit. The State of 
Wisconsin has mandated indoor air testing for homes near 
groundwater that is contaminated with perchlorate because of 
threats to the health of home owners. But there are no plans to 
conduct indoor air testing at homes in Spring Valley where the 
groundwater runs at basement level.
    Although our surface soil has been tested for arsenic, why 
is the Corps not testing for manganese and mercury which also 
have been found in high concentrations in our neighborhood? 
Recently there was a new find of mercury at the AU Public 
Safety Building.
    I welcome the comments today of Mr. Hawkins, especially 
since DDOE acknowledged in a public roundtable convened by the 
D.C. Council just last month that it was playing a ``passive 
role'' in the cleanup.
    Recently some residents indicated an interest in using land 
once owned by AU for a playground. This area was thought at one 
time to include a bunker that has not been ``pinpointed'' 
according to the Corps. There is no additional investigation of 
this site planned even though in recent years part of this land 
also has been slated for future development. Can the Corps 
assure us that this land is safe for children and that new home 
construction will not unearth the kind of munitions that were 
found 16 years ago? Our questions to the Corps and AU about 
this site have so far gone unanswered.
    Are there risks that we must learn to live with in our 
community? Absolutely. But these should be informed decisions, 
not circumstances forced upon us.
    Two weeks ago I learned from a friend of mine that a 
college buddy of hers had died recently of a brain tumor in his 
middle 50's. He was one of three who had died of cancer in 
recent years at roughly the same age. All three lived at a 
fraternity on campus that now houses the AU Child Development 
Center. There was an obituary in the Washington Post just this 
week of a former resident of Spring Valley who had been 
diagnosed with a brain tumor but died at 50 from complications 
of pulmonary fibrosis, a disease thought rare for that age. We 
hear almost routinely of residents or former residents with new 
diagnoses of peripheral neuropathies, a common manifestation of 
arsenic poisoning. There are many more health related stories 
that could be told but a comprehensive health care study has 
never been conducted within our community.
    So there is a lot at stake for us. Cleaning up the 
community is not just a matter of safeguarding the environment 
in which we live. It is also about protecting the health and 
well-being of multiple generations of residents.
    When weapons were found in our community by accident in 
1993, they were helicoptered out and sent elsewhere to be 
stored and destroyed. Today, those weapons are stored and 
destroyed in our community, the only residential community 
where toxic chemical weapons are destroyed, in this case less 
than 1,000 feet from a hospital. At least that is the 
information that we were provided by the Army Corps at a 
community meeting last March. We know that the AUES was----
    Ms. Norton. Mr. Smith, we are going to run out of time.
    Mr. Smith. I have one more sentence.
    Ms. Norton. All right.
    Mr. Smith. OK? I promise you, one more sentence.
    Each of our residents in Spring Valley and throughout the 
city has a right to know that military pollution left over from 
this chemical research conducted in D.C. poses no danger to 
current or future residents. That is our responsibility to the 
people who elected us. It is one that I and others here today 
are more than ready to share with this subcommittee and any 
other elected or appointed official in D.C.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.132
    
    [GRAPHIC] [TIFF OMITTED] T3572.133
    
    [GRAPHIC] [TIFF OMITTED] T3572.134
    
    [GRAPHIC] [TIFF OMITTED] T3572.135
    
    [GRAPHIC] [TIFF OMITTED] T3572.136
    
    [GRAPHIC] [TIFF OMITTED] T3572.137
    
    [GRAPHIC] [TIFF OMITTED] T3572.138
    
    [GRAPHIC] [TIFF OMITTED] T3572.139
    
    [GRAPHIC] [TIFF OMITTED] T3572.140
    
    [GRAPHIC] [TIFF OMITTED] T3572.141
    
    [GRAPHIC] [TIFF OMITTED] T3572.142
    
    [GRAPHIC] [TIFF OMITTED] T3572.143
    
    [GRAPHIC] [TIFF OMITTED] T3572.144
    
    [GRAPHIC] [TIFF OMITTED] T3572.145
    
    [GRAPHIC] [TIFF OMITTED] T3572.146
    
    [GRAPHIC] [TIFF OMITTED] T3572.147
    
    [GRAPHIC] [TIFF OMITTED] T3572.148
    
    [GRAPHIC] [TIFF OMITTED] T3572.149
    
    [GRAPHIC] [TIFF OMITTED] T3572.150
    
    [GRAPHIC] [TIFF OMITTED] T3572.151
    
    [GRAPHIC] [TIFF OMITTED] T3572.152
    
    [GRAPHIC] [TIFF OMITTED] T3572.153
    
    [GRAPHIC] [TIFF OMITTED] T3572.154
    
    [GRAPHIC] [TIFF OMITTED] T3572.155
    
    Ms. Norton. Thank you very much, Mr. Smith. Mr. Slowinski.

                  STATEMENT OF KENT SLOWINSKI

    Mr. Slowinski. My name is Kent Slowinski. I grew up in 
Spring Valley in the 1950's and 1960's. Since the 1970's, I 
have worked in Spring Valley as a landscape crew member, 
contractor, and architect. I am also a former RAB member.
    As the Army Corps likes to say, bottom line up front. The 
current process is just not working. Over the past 16 years we 
have had to endure flawed sampling, secret sampling, sampling 
that never took place, incomplete historical research, attempts 
to rewrite history, several uninvestigated burial pits, no 
cumulative health risk assessments, a dysfunctional RAB, and 
more recently a 1-year backlog in posting partnering meeting 
minutes to the Spring Valley Web site.
    If the Army Corps can't even post minutes in a timely 
manner, can we trust them with destroying chemical munitions 
less than 1,000 feet from the District's water supply? Davis 
Robertson, one of the original RAB members, said if the Army 
Corps was a private contractor they would have been fired a 
long time ago.
    The Spring Valley issue became personal for me in 1995 when 
my mason found a Stokes mortar while working on a house on 
Sedgewick Street. The current owners are dealing with serious 
health problems and one of the previous owners developed a 
brain tumor. On the same block were two cases of aplastic 
anemia in the same house, 20 years apart. Both were fatal. One 
was a 7-year old girl; the other was a 70 year old man. 
Aplastic anemia is very rare. Just one case raises red flags. 
On three adjacent properties were three cases of multiple 
myeloma, again each one fatal. On another adjacent property was 
one case of pernicious anemia. That individual, Camille Saum, 
survived. She and her sister, Beth Junium, collected anecdotal 
health information from their neighbors.
    This was the beginning of the Northwest Current's Spring 
Valley Disease Survey. You don't have to be a Harvard trained 
epidemiologist to know that something is terribly wrong here. 
We have been living with this toxic brew of more than 600 AUES 
chemicals for 90 years now. To date, we know of more than 200 
residents, students, and workers with health problems 
associated with chemical exposure. My name, as well as several 
friends and family members, is on that list.
    The 2007 Johns Hopkins Scoping Study, not a health study, 
found that residents' anecdotal health problems were consistent 
with the existing scientific literature on exposure to chemical 
warfare agents and agent breakdown products. Unfortunately, the 
followup health study has been delayed and is only partially 
funded. We need another $500,000 to fully fund the study. We 
need to include some of the early and longtime Spring Valley 
residents in that study.
    Little is being done to educate people about the symptoms 
of exposure or to assist residents, students, and workers who 
may have been exposed. We will likely need additional funding 
for medical monitoring and for independent sampling of soil, 
air, and water to determine if the Army Corps' cleanup is truly 
complete.
    I don't know how you can conduct a thorough cleanup when 
the historical research is incomplete and a conceptual site 
model for Spring Valley has never been developed. These are the 
first two steps of any cleanup. It makes you wonder if the Army 
Corps really wants to be here and do the work.
    It is clear that the current process is not working, but 
what do we do? One solution is to put Spring Valley on the 
Superfund National Priorities List and have EPA take the lead 
along with a more proactive D.C. Department of the Environment. 
Another possibility is to ask the National Academy of Sciences 
to do a study on the thoroughness of the cleanup.
    Looking at the bigger picture, at current Pentagon funding 
levels of just $250 million annually, it will take 80 to 160 
years to clean up the known contamination at 3,000 to 5,000 
formerly used defense sites. If annual FUDS funding was 
increased to $2 billion, these sites could be cleaned up in a 
much more reasonable 10 to 20 years.
    To conclude, one, we need more transparency and oversight. 
Two, we need to a better job at researching, investigating, and 
cleaning up Spring Valley. Three, we need to do a better job 
protecting the health and safety of the citizens of the 
District of Columbia. And four, we need your help. It is time 
for a change.
    Thank you.
    [The prepared statement of Mr. Slowinski follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.156
    
    [GRAPHIC] [TIFF OMITTED] T3572.157
    
    [GRAPHIC] [TIFF OMITTED] T3572.158
    
    [GRAPHIC] [TIFF OMITTED] T3572.159
    
    [GRAPHIC] [TIFF OMITTED] T3572.160
    
    [GRAPHIC] [TIFF OMITTED] T3572.161
    
    [GRAPHIC] [TIFF OMITTED] T3572.162
    
    [GRAPHIC] [TIFF OMITTED] T3572.163
    
    [GRAPHIC] [TIFF OMITTED] T3572.164
    
    [GRAPHIC] [TIFF OMITTED] T3572.165
    
    Ms. Norton. Thank you, Mr. Slowinski. Mr. Beumel.

                  STATEMENT OF GREGORY BEUMEL

    Mr. Beumel. Congresswoman Norton and members of the 
committee, I want to thank you for the invitation to speak to 
you today. I am Greg Beumel, the community co-chair of the 
Spring Valley Restoration Advisory Board [RAB]. I began serving 
on the RAB in June 2002 and became co-chair in 2005. I have 
also served on the Science Task Group of the RAB and am Chair 
of that group. I am joined today by Dr. Peter deFur, the 
science advisor of the RAB.
    To answer some previous questions, the Restoration Advisory 
Board was established by the U.S. Army Corps of Engineers under 
DOD regulations to obtain community input into the 
Environmental Restoration Program at Spring Valley. Members 
come from two categories, residential and institutional. 
Residential members are volunteers who must live or work within 
the boundary of the FUDS. Institutional members represent the 
major institutions in Spring Valley and include AU, the Horace 
Mann Elementary School, the D.C. Department of the Environment, 
the U.S. EPA, and the Army Corps of Engineers. When voting to 
provide advice to the Army, only residential members are 
counted.
    Briefly, I am a toxicologist with 20 years experience in 
human health risk assessment, quantitative and qualitative 
analysis of chemical data, regulatory support, data base 
management, communications, and program and project management. 
I performed more than 50 risk assessments at Federal facilities 
nationwide ranging from baseline risk assessments to toxicity 
assessments.
    This statement is my own evaluation and comment on the 
cleanup at Spring Valley. It is based on a meeting with the 
Science Task Group of the RAB, consisting of Dr. David Feary, a 
geologist on the staff of the National Research Council, and 
Dr. Peter deFur, the technical advisor to the RAB who is a 
Research Associate Professor at Virginia Commonwealth 
University and a full time private consultant. Much of this 
testimony was presented by Dr. deFur at a meeting called by 
Councilmember Mary Cheh of the District of Columbia City 
Council.
    Jumping ahead to save time, an upcoming project concern is 
the plan to destroy military munitions recovered during the 
investigations that are now ending. The plan to destroy the 
munitions in an especially designed and constructed mobile 
facility located on the Federal property makes sense and 
presents the lowest risk situation, in my professional opinion 
and that of the members of the RAB Science Task Group. Our 
conclusion is based on risk factors identified for destruction 
activities, the design and operation of the destruction 
equipment, and the characteristics of the known threats to 
human health.
    Two of the greatest risk factors are the handling and the 
transport of such items. Each handling increases the 
probability that a mistake can result in an accident. 
Transportation not only requires special permits from any State 
through which the items must move but increases the probability 
for accidents and unexpected events.
    In terms of special actions and risks onsite, the risks are 
lowered by the fact of two containment systems, air handling 
systems, well tested equipment, experienced operators, distance 
from the facility to any residents or commercial facilities, 
and a plan to monitor local weather and proceed only when safe 
conditions prevail. Given all the specific risk factors, I 
agree with the decision to proceed with onsite destruction 
using this equipment.
    In 1993, the Army dramatically flew Spring Valley munitions 
out of the neighborhood via helicopter. Those days have ended 
as communities realize that they do not want to become a 
secondary dumping ground for highly dangerous materials 
recovered in another community.
    In 1999, the Army completed fabrication of a usable 
prototype of the mobile explosive destruction system that has 
allowed for the destruction of chemical munitions closer to the 
location of discovery. Since then the EDS has been used at a 
number of communities throughout the United States, including 
Spring Valley, with great success.
    In the look for independent oversight, I don't claim to 
have independent oversight. But we do have a technical advisor 
who works for the RAB and has been represented in most of the 
technical discussions and deliberations. They have taken his 
input and contributions on par with other agency input.
    According to Army policy, this TAPP grant is supposed to 
last for 5 years with a $25,000 limit on each year. On two 
occasions I have requested that the Baltimore District 
Commander of the U.S. Army Corps of Engineers ask the Deputy 
Assistant Secretary of the Army to waive caps on the TAPP 
grants for Spring Valley. In both cases my request has been 
granted. We continue to receive funding and continue to have 
this outside technical expertise available to the community.
    He attends the monthly technical partnering meeting when 
available. He also attends calls and meetings on groundwater, 
soil sampling, determining the list of chemicals to sample, 
special site investigations, etc. He was part of the group that 
investigated other areas that may have been overlooked, the 
Area of Interest Taskforce. And he helped arrange a site visit 
by Rick Woods, who had discovered munitions more than 10 years 
ago.
    I am going to jump to the end because I know you are out of 
time. The purpose of these investigations is to find other 
World War I era items if they exist so I will be surprised if 
additional discoveries are not made. The current schedule 
leaves time for additional discoveries of the size made this 
past May of World War I 75 millimeter munition items and pieces 
of grenades. If there is a major discovery such as a new burial 
pit, the schedule will need adjustment. At this point, we will 
need to see the resolve of the U.S. Army Corps of Engineers to 
complete the project.
    Thank you.
    [The prepared statement of Mr. Beumel follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.166
    
    [GRAPHIC] [TIFF OMITTED] T3572.167
    
    [GRAPHIC] [TIFF OMITTED] T3572.168
    
    [GRAPHIC] [TIFF OMITTED] T3572.169
    
    [GRAPHIC] [TIFF OMITTED] T3572.170
    
    Ms. Norton. Thank you. Mr. Barton, let us take as much of 
your testimony as we can. That is the 15 minute bell. It 
usually lasts more than 15 minutes but I would like you to 
summarize your testimony, please.

                   STATEMENT OF JAMES BARTON

    Mr. Barton. Yes, ma'am. Thank you. We haven't found 
everything that is at Spring Valley and we are not going to the 
way we are doing it. A new methodology is called for, one that 
is not being used anywhere else in the country, that uses the 
latest science and technology and brilliant minds to detect the 
presence of and map trace amounts of these toxins.
    We need third party oversight. We need somebody who is not 
currently at the table, I think. But we definitely need a new 
approach of doing it.
    There are new and emerging technologies that are non-
invasive and allow us to take atmospheric, surface water, 
runoff water, and groundwater samplings quicker, faster, 
smarter, and more effectively which can direct our remedial 
efforts in the right direction. If your house, for instance, 
has gas coming in it, we will do what we can do then because we 
know where it is coming from. If we can't eliminate it, perhaps 
that house has to go. But at lease we now have a focused look 
using the latest technology. And we are not doing it. We are 
using standard protocols as you would anywhere else in the 
country.
    There is nothing normal about this particular site. This is 
the birth of our chemical weapons program for this country and 
it is in unrestricted residential use. Oh my God, you know? 
They were mixing and matching everything here. And you can find 
it everywhere. And we haven't found it everywhere. We haven't 
even begun to find a lot of this stuff.
    But what is most important is finding what is coming into 
your homes, finding what is killing us. Why are there people in 
the ground? Why are there professionals who are not in their 
offices anymore and don't have a job anymore because they rub 
somebody the wrong way?
    There are a lot of things we can do better than what we are 
doing right now. I would like to help do that if I could.
    Incidentally, and forgive me for not introducing myself, my 
name is James Barton. I am the president of Underwater Ordnance 
Recovery. I am a subject matter expert on munitions. I have 
been diving on piles of bombs for 34 years and because of the 
nature of my business, I am quite familiar with these.
    Science is the answer, the new technologies and the science 
to detect and track trace amounts of toxins.
    Thank you.
    [The prepared statement of Mr. Barton follows:]

    [GRAPHIC] [TIFF OMITTED] T3572.171
    
    Ms. Norton. Thank you very much. Let me say that the 
purpose of this testimony was not to, forgive me, cross examine 
the community, as it were. You are not the responsible parties. 
Of course, the RAB members have some responsibility but, again, 
they are not public officials. The point was to hear from 
people within the community, essentially a critique of what has 
been done. Now that has to be weighed alongside what the Army, 
the Army Corps, the EPA, and the officials said.
    I want to express my appreciation for the Corps and the 
Army for remaining to hear you out. I had wanted to hear the 
community first because in fairness I thought the Army should 
be able to, for example, respond to some of what we heard. I 
think they would have felt better about responding since the 
whole point here is to solve a problem and to be truly 
transparent. But I appreciate that you regarded the testimony 
of the community important enough so that, as late as it is, 
you have stayed to hear it.
    I must say, when we hear testimony, for example, and he had 
to give it this way, this is Mr. Beumel's testimony with some 
boiler plate in here, I have signed a confidentially agreement, 
one of the rest of you said that, too, speaking to a Member of 
Congress, speaking to a committee of Congress, I have signed a 
confidentiality agreement about some munitions that are 100 
years old, and so I can't tell you what the weapons are, and I 
can't tell the community what the weapons are, that is a 
problem.
    This community is going to know what those weapons were 
when this is all over. And I use the word were advisably 
because they were. I think what we have already found out in 
the 16 years you have been there is that most of what was there 
has withered away in some way or the other.
    The health study notions are important. This is very 
controversial because after health studies nobody is ever able 
to say, when it comes to cancer, that this was the cause. You 
are able to see certain kinds of trends and make certain kinds 
of conclusions, and then I am not sure what you do about them.
    But the remaining problem in this period is, as far as we 
are concerned, the Army's self declaration that it is leaving. 
Nobody leaves until the Congress of the United States says yes, 
we think it is time to go. We will have to see what these 2 
years bring us. Much will depend on the transparency of the 
effort. We begin with transparency of what in the world we are 
talking about and what we have been talking about for 16 years. 
We don't even know that.
    It makes many in the community, and it certainly makes this 
Member of Congress, feel that we are at ground zero because we 
don't even know what we have been digging about all this time. 
It is an absurdity, of course, but it is a bureaucratic 
absurdity that has been put upon everybody, including the 
public officials who are here. Because it is obviously above 
their pay grade. We are going to find out whose pay grade it 
is.
    It would be impossible for this subcommittee and this full 
committee to authorize the end of this effort without knowing 
what we were ending and without the community knowing what we 
were ending.
    The testimony has been very important. We have been taking 
notes and then we remembered that we will have it in writing in 
any case. So these questions can be presented to the first 
witnesses who have been kind enough to stay so that they can 
have the opportunity to respond to them.
    The subcommittee remains most interested in how we are 
going to reach agreement that the time has come to go. We are 
fully aware that we are dealing with ongoing issues and that 
they may come again. Mr. Beumel, I think your point was well 
taken. When we are talking about things that are hidden so 
deeply that we don't even know where they are, we can't say 
that nothing will ever happen again. That is why the nature of 
the monitoring and the nature of the testing frankly looks like 
testing and monitoring that is going to have to be permanent. 
As long as you tell me that there are places that you will 
never get to because they are buried so deeply and you don't 
even know where they are, I don't know that in that sense this 
site will ever be vacated as far as the Government is 
concerned.
    I want to thank all of the witnesses, particularly for this 
testimony which has been invaluable to this committee. Of 
course as I indicated, this is the beginning. We don't mean to 
subject everybody to a continuous round of hearings but we have 
to answer the questions that you have very appropriately raised 
and have been raised throughout this hearing.
    I thank you very much for this testimony. The hearing is 
adjourned.
    [Whereupon, at 5:30 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3572.172

[GRAPHIC] [TIFF OMITTED] T3572.173

[GRAPHIC] [TIFF OMITTED] T3572.174

[GRAPHIC] [TIFF OMITTED] T3572.175

[GRAPHIC] [TIFF OMITTED] T3572.176

[GRAPHIC] [TIFF OMITTED] T3572.177

[GRAPHIC] [TIFF OMITTED] T3572.178

[GRAPHIC] [TIFF OMITTED] T3572.179

[GRAPHIC] [TIFF OMITTED] T3572.180

[GRAPHIC] [TIFF OMITTED] T3572.181

[GRAPHIC] [TIFF OMITTED] T3572.182

[GRAPHIC] [TIFF OMITTED] T3572.183

[GRAPHIC] [TIFF OMITTED] T3572.184

[GRAPHIC] [TIFF OMITTED] T3572.185

                                 <all>

</pre></body></html>
